<html>
<title> - REDUCING SENIOR POVERTY AND HUNGER: THE ROLE OF THE OLDER AMERICANS ACT</title>
<body><pre>[Senate Hearing 113-791]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-791

REDUCING SENIOR POVERTY AND HUNGER: THE ROLE OF THE OLDER AMERICANS ACT

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON PRIMARY HEALTH AND AGING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

  EXAMINING REDUCING SENIOR POVERTY AND HUNGER, INCLUDING S. 1028, TO 
        REAUTHORIZE AND IMPROVE THE OLDER AMERICANS ACT OF 1965

                               __________

                             JUNE 19, 2013

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                          U.S. GOVERNMENT PUBLISHING OFFICE
99-847 PDF                         WASHINGTON : 2016                               
          
_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6c0b1c032c0f191f180409001c420f030142">[email&#160;protected]</a>  
       
          
          
          
          
          
          
          
          
          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland
PATTY MURRAY, Washington
BERNARD SANDERS (I), Vermont
ROBERT P. CASEY, JR., Pennsylvania
KAY R. HAGAN, North Carolina
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado
SHELDON WHITEHOUSE, Rhode Island
TAMMY BALDWIN, Wisconsin
CHRISTOPHER S. MURPHY, Connecticut
ELIZABETH WARREN, Massachusetts

                                     LAMAR ALEXANDER, Tennessee
                                     MICHAEL B. ENZI, Wyoming
                                     RICHARD BURR, North Carolina
                                     JOHNNY ISAKSON, Georgia
                                     RAND PAUL, Kentucky
                                     ORRIN G. HATCH, Utah
                                     PAT ROBERTS, Kansas
                                     LISA MURKOWSKI, Alaska
                                     MARK KIRK, Illinois
                                     TIM SCOTT, South Carolina
                                       

                      Pamela Smith, Staff Director

        Lauren McFerran, Deputy Staff Director and Chief Counsel

               David P. Cleary, Republican Staff Director

                                 ______

                Subcommittee on Primary Health and Aging

                 BERNARD SANDERS (I), Vermont, Chairman

BARBARA A. MIKULSKI, Maryland        RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         PAT ROBERTS, Kansas
SHELDON WHITEHOUSE, Rhode Island     LISA MURKOWSKI, Alaska
TAMMY BALDWIN, Wisconsin             MICHAEL B. ENZI, Wyoming
CHRISTOPHER S. MURPHY, Connecticut   MARK KIRK, Illinois
ELIZABETH WARREN, Massachusetts      LAMAR ALEXANDER, Tennessee (ex 
TOM HARKIN, Iowa (ex officio)        officio)

                     Sophie Kasimow, Staff Director

               Riley Swinehart, Republican Staff Director

                                  (ii)

  
                            C O N T E N T S

                               __________

                               STATEMENTS

                        WEDNESDAY, JUNE 19, 2013

                                                                   Page

                           Committee Members

Sanders, Hon. Bernard, Chairman, Subcommittee on Primary Health 
  and Aging, opening statement...................................     1
Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina.......................................................     4
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..     5
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................     6
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................     7
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    42

                               Witnesses

Altman, Nancy J., Co-Director of Social Security Works and 
  Chairman of the Board of Directors of the Pension Rights 
  Center, Washington, DC.........................................     8
    Prepared statement...........................................     9
Hollander, Ellie, President and Chief Executive Officer of the 
  Meals On Wheels Association of America, Alexandria, VA.........    18
    Prepared statement...........................................    19
Bedlin, Howard, Vice President, Public Policy and Advocacy at the 
  National Council on Aging, Washington, DC......................    23
    Prepared statement...........................................    25
Downey, Paul, President and Chief Executive Officer of Senior 
  Community Centers, and President of the National Association of 
  Nutrition and Aging Services Programs, San Diego, CA...........    32
    Prepared statement...........................................    34

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Handwritten messages written on paper plates.................    46

                                 (iii)

  

 
REDUCING SENIOR POVERTY AND HUNGER: THE ROLE OF THE OLDER AMERICANS ACT

                              ----------                              


                        WEDNESDAY, JUNE 19, 2013

                                       U.S. Senate,
                  Subcommittee on Primary Health And Aging,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Bernard 
Sanders, chairman of the subcommittee, presiding.
    Present: Senators Sanders, Franken, Baldwin, Murphy, 
Warren, and Burr.

                  Opening Statement of Senator Sanders

    Senator Sanders. We've got an important hearing, and I'm 
delighted by the turnout. I thank our panelists very much for 
being with us today to discuss an issue that, frankly, does not 
get enough discussion.
    In my view, if a nation is to be judged by how it cares for 
the weakest, the most vulnerable people amongst us, the United 
States would not get particularly high marks. That's true with 
regard to how we deal with children, but today we're focusing 
on the needs of elderly people.
    Elderly people, by definition, are folks who have lived 
their whole lives. Many of them have worked their whole lives. 
Many of them have raised kids. Many of them don't have a lot of 
money, never had a lot of money. They reach the end of their 
lives, when they are no longer able to go out and earn a 
living, and they are plagued by what happens to people who get 
old with many, many illnesses and frailties and weaknesses. 
They are vulnerable.
    I think both from a moral point of view--and we're going to 
touch on the other aspect--from an economic point of view, we 
just cannot turn our backs on the millions and millions of 
seniors who are hurting in this country who need help today. I 
know there's a bit of mythology out there pushed by folks who 
represent moneyed interests who seem to think that all seniors 
are doing just great. They're just great. They're all 
vacationing in Florida and so forth and so on. And they have 
not looked at the reality of what is life for many, many 
seniors. We have a panel today that is going to get into that 
to some degree.
    In America today, half of all seniors are unable to afford 
even basic living expenses or are living right on the edge. 
Four million seniors live on less than $11,000 a year. Let me 
repeat that. Four million seniors live on less than $11,000 a 
year. Frankly, I don't know how anybody lives on $11,000 a 
year.
    Even before the economic downturn, the number of seniors 
who are dealing with hunger more than doubled from 2001 to 
2009. So when we talk about the recession, the economic 
downturn, too often we forget about the impact of that 
recession on seniors, but hunger has gone up.
    One of the most effective programs ever designed to address 
the needs of vulnerable seniors is the Older Americans Act. It 
was signed into law by President Lyndon Johnson in 1965, the 
same year as Medicare and Medicaid programs were signed. They, 
of course, are much better known than the Older Americans Act.
    The Older Americans Act provides Federal funding for many 
essential services for seniors, including job training, 
caregiver support, transportation, health promotion, benefits 
enrollment, and protections from abuse. Significantly, more 
than 40 percent of the Older Americans Act funding is used to 
provide meals to millions of frail and isolated seniors through 
programs like Meals on Wheels and through congregate meal 
programs at senior centers.
    So when you talk about the Older Americans Act, 40 percent 
of the funding is going to nutrition programs for seniors who 
need that help. Now, these meal programs not only work to ease 
isolation, but anybody who has any understanding of the Meals 
on Wheels program knows that its importance is not just the 
actual nutrition and the meals that isolated seniors get, but 
also the fact that somebody is knocking on their door to see 
how they are, to chat with them for a few minutes, which can 
mean an enormous amount to somebody who's living alone and who 
doesn't communicate much with the world.
    One of the additional benefits of the Older Americans Act 
is that it brings huge numbers of volunteers from all over this 
country into the community to help seniors. But it is not just 
the help that seniors get directly through the meals program 
and the other programs that's important. When we invest in 
these programs, we save money, and sometimes some of my friends 
don't fully get that.
    But common sense and many, many studies tell us that if you 
are not providing nutrition to seniors, if seniors are 
malnourished, what happens to those seniors? It doesn't take a 
genius to figure it out. If you're malnourished, by definition, 
you're going to get sick more often than you should. If you're 
old and you're sick, where do you end up? You may end up in the 
emergency room, a great expense to Medicaid or the healthcare 
system. If you're malnourished and you're weak and you fall and 
you break your hip, which happens, you end up in the hospital 
at an expense of tens and tens of thousands of dollars.
    The simple truth is that it makes a lot more sense to 
provide adequate nutrition to frail seniors than to spend money 
on preventable hospital costs. The simple truth is that we can 
feed a senior for an entire year for the cost of 1 day in a 
hospital--feed a senior for an entire year for the cost of 1 
day in a hospital, and we're cutting back on feeding seniors.
    Providing adequate nutrition reduces the need for nursing 
home care, for which the average cost is about $80,000 per 
year. Many, many seniors would much prefer to stay at home. We 
can do that. It saves the system money and keeps seniors in 
contact with their friends and their family. But to do that, we 
have to make sure that their basic needs are taken care of.
    Despite the success of the Older Americans Act in keeping 
seniors healthy, independent, and out of hospitals and nursing 
homes, its vitally important programs have been inadequately 
funded for years, even before sequestration, which cut $40 
million from senior meals programs. Just think about that, what 
priorities we have as a nation when we are cutting $40 million 
from senior meals programs.
    Despite all of that, despite sequestration, only a small 
portion of the seniors who needed the services provided by the 
Older Americans Act were actually receiving them. And now 
sequestration means as many as 19 million fewer meals will be 
served. These cuts have resulted in wait lists from one end of 
the country to the other and have resulted in some programs 
simply closing their doors. Imagine that. Imagine that.
    In the year 2013 in the United States of America, our 
seniors should not be worried about where they will get their 
next meal. They should not be forced to decide whether they pay 
their utility bills or buy the prescription drugs they need. 
That is not rhetoric. That is reality, and I suspect every 
person sitting up here has met seniors who are experiencing 
that choice--can't afford to pay for my electricity, can't 
afford my phone bill, can't afford my prescription drugs, can't 
afford to eat, so what choice do I make? We should not be 
having that situation in America in 2013.
    The choice is ours. This committee will play an important 
role in that debate. Either we waste billions of dollars on 
emergency room visits and unnecessary hospital stays, or we 
provide older Americans the resources they need to live 
healthier, more secure, and more dignified lives.
    The good news is the Older Americans Act is an important 
part of the solution. The congressional authorization for the 
Older Americans Act expired in 2011. And while it has been 
extended with stopgap measures, it deserves not only to be 
fully reauthorized, but to be expanded in order to address the 
current crisis and the growing needs.
    The Older Americans Act Reauthorization bill, S. 1028, 
which I put forth with 17 co-sponsors, strengthens and 
modernizes the core programs of the act, such as the meals 
program, and States that it is the sense of the Senate to do 
more than maintain the status quo, that funding for the act 
should increase by at least 12 percent over fiscal year 2010 
levels.
    The bill also updates the definition of greatest economic 
and social need, increases the focus of economic security in 
the act, supports the modernization of senior centers, and 
strengthens the important provisions to protect seniors, 
especially the most vulnerable among us, including those living 
in nursing homes, from abuse and exploitation.
    The HELP Committee will be doing a markup on this 
legislation next month. This markup is long overdue. And, in my 
opinion, I have not the slightest doubt that the vast majority 
of the American people support these programs. They want these 
programs expanded, and they want us to get our priorities 
right.
    I want to thank, again, all of our panelists for being 
here. And let me give the mike over to the Ranking Member, 
Senator Burr.

                   Opening Statement of Senator Burr

    Senator Burr. Mr. Chairman, thank you. Thank you for 
holding this hearing today on the Older Americans Act and how 
that legislation might better solve the issues of hunger and 
poverty for our seniors.
    Let me say to our witnesses thank you for being here to 
instill with us your knowledge on this issue.
    Nearly 48 years ago, President Lyndon Johnson signed this 
act into law with a very simple goal, providing limited Federal 
funding and guidance to a network of State and local 
communities committed to caring for our older, more vulnerable 
Americans. He stated then, ``The grants under this law will be 
modest in dollars but will be far reaching in results.''
    As a general matter, I agree with this original goal. We 
believe that the Older Americans Act can be an example of how 
the Federal Government leverages our limited funds for greater 
coordination and involvement at a local level. I've seen the 
OAA's impact throughout my home State on the dignity and 
independence seniors are afforded by our local Area Agencies on 
Aging and the caring folks in each community who believe 
treating that generation, the generation that came before them, 
with respect and care, is our responsibility.
    In 1992, North Carolina took a step forward in simplifying 
the sources of funding for these programs by creating the Home 
and Community Care Block Grant. Prior to the block grant's 
creation, North Carolina was stuck in a maze of various sources 
of funding from the Federal Government and the State, each with 
a further maze of requirements and reporting that diverted 
attention from basic program administration.
    Now, North Carolina's practitioners are able to focus on 
caring for seniors rather than complying with a confusing set 
of requirements. Although I continue to hear of existing 
inefficiencies, this flexibility has ultimately improved the 
care seniors in our State receive.
    Appropriations for the Older Americans Act remain small as 
a relative item of our Federal budget. But that remains in 
keeping with the original intent President Johnson outlined in 
1965. It is also unlikely to change until Congress gets the 
Federal Government's budget deficit and overall debt in order.
    For that reason, it's even more important that any 
authorization of this law own up to some basic inequities in 
how title III funds are allocated to States and by examining 
the needs of seniors in each State and allowing States the 
flexibility to better target funds accordingly. I continue to 
believe that the current OAA formula is an impediment to 
directing funds where they're most needed.
    In addition, greater programmatic funding and transfer 
flexibility, elimination of unnecessary reporting requirements, 
and removal of legislation that fosters fragmentation of 
organizations and agencies on the local level are all concerns 
I've heard from North Carolinians under current program 
administration. Any reauthorization that intends to make this 
program better must acknowledge these realities and fix them.
    Finally, there's no greater challenge to the Federal 
Government's purse than the number of Americans preparing to 
retire and enter the later years of their lives. Our 
entitlement programs will face a considerable strain as a 
result of increased enrollments of our Nation's seniors. Many 
challenges will arise as a result of how we finance these 
unprecedented expansions.
    OAA should remain as easy as possible for local Areas on 
Aging to administer so that these programs are easy to maximize 
to the maximum extent possible the weight that will be placed 
on Medicare, Social Security, and other programs from a growing 
population of seniors. In short, the Older Americans Act 
reauthorization should remain true to President Johnson's 
original intent, minimal Federal funding and direction with 
maximum reliance on the State and local creativity through 
administration.
    I thank you, Senator Sanders, and my colleagues. And I 
again thank the witnesses.
    Senator Sanders. Thank you, Senator Burr.
    Senator Baldwin.

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you, Mr. Chairman. I appreciate the 
fact that you're holding this hearing today, and I appreciate 
your leadership in strengthening economic security for our 
Nation's seniors.
    The Older Americans Act has been a nearly 50-year promise 
enacted in the same year that we created Medicare. This 50-
year-old promise is made so that seniors in our country may 
live in dignity with independence and, hopefully, in the 
comfort of their own homes.
    The Older Americans Act programs often serve as a lifeline 
to seniors. However, their importance is too often forgotten by 
lawmakers. Today, rather than tell you about being raised by my 
grandparents or my own personal support for the Older Americans 
Act or even to detail my work with our chairman to reauthorize 
and strengthen this law, I thought I'd let Wisconsin seniors 
tell you about their own experience with Older Americans Act 
nutrition programs.
    Last month, the La Crosse Aging Unit in La Crosse, WI, sent 
me 40 paper plates with handwritten messages on each one from 
seniors who value their Older Americans Act meal programs. 
Powerful special interests always get a say in Washington, but 
today I want to make sure that some of these seniors' voices 
are heard.
    Gladys writes,

          ``A large number of seniors are alone or disabled and 
        do not do well for themselves nutritionally or 
        socially. The nutrition sites and senior centers 
        provide both a social life and a balanced meal at least 
        once a day. These sites are needed now, and the need 
        will increase. Please keep funding.''

    Father Bob writes,

          ``When I found the La Crosse Aging Unit and the 
        mealtime lunch service, they made such a huge and 
        tremendous relief and change in my life. I'm quite sure 
        if I had not found this service of Meals on Wheels, 
        many days I would not have the energy or the 
        willingness to even try to make a sandwich. I am so 
        glad that I found this service.''

    Mary writes,

          ``Please make it one of your priorities to restore 
        full funding to Meals on Wheels and other programs that 
        meet vital needs in our community and across the U.S. 
        As one undergoing new treatments, the meals are a 
        wonderful service at this time in my life.''

    And Donna writes,

          ``I enjoy having meals at the nutrition site as they 
        are good and good for me, and I use them as my main 
        meal. We have a wonderful time playing cribbage before, 
        and wherever there is cribbage, you will find me.''

    I will be submitting the plate messages as well as about 30 
others that I received for the record, and I look forward to 
hearing from our panel. I stand ready to work with my 
colleagues on a bipartisan basis to reauthorize the Older 
Americans Act.
    [The information referred to can be found in Additional 
Material.]
    Senator Sanders. Thank you, Senator Baldwin.
    Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman, and thank you, 
Ranking Member Burr, for holding this meeting today.
    We're going to talk about a lot of different things that 
happen to seniors economically. But since we're talking about 
the Meals on Wheels program, I really do want to come back to 
this, because what strikes me about this is there is such a 
profound economic issue here, that however else you've thought 
about this thing, for every dollar spent on the Meals on Wheels 
program, we save $50 in Medicare costs. I don't know many 
places where you can get a 50 to 1 return on an investment.
    Spending $25 a year on meals for seniors across the State 
will result--every $25--in a 1 percent reduction in the number 
of seniors who are in low-skill nursing homes. So this is a 
profound economic issue. These are investments we make. If we 
are concerned about the rising cost of Medicare, we have right 
in front of us an open door on a way to help bring down those 
costs.
    So count me in as one of the strong supporters here and one 
of the people who will be active on this. But I do want to say 
a second part of this. This is also a profound moral question, 
a question about helping people retain their independence and 
how we treat people who have worked and supported themselves 
all their lives, supported us as children, and supported their 
parents when it was their turn. But most of all, what is our 
measurement of who we are as a people other than how we treat 
those who are more vulnerable?
     I see this whole question. While Meals on Wheels is 
specific and it's a way to focus in on it, this is a place 
where good economics emerges with the decisions that are right 
for us as a country, as human beings. So I want to do 
everything I can to support the work of this committee, to 
support your work, so that when you're out there on the front 
lines, you've got a good partner here in Washington. I think 
that should be our goal.
    Thank you, Mr. Chairman.
    Senator Sanders. Thank you, Senator Warren.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you, Mr. Chairman, and welcome to our 
guests today.
    Senator Baldwin, I think this will be the first time that 
paper plates have been submitted for the congressional records. 
So congratulations on that milestone.
    Let me just briefly add this because I think we're eager to 
hear your testimony. There are a number of stunning statistics 
out there today about how little people are able to save for 
retirement. As defined benefit plans vanish and wages remain 
stagnant and the under-employment rate continues to grow, more 
and more Americans just can't put money away like they used to 
for retirement.
    One of the most amazing statistics is that nearly half of 
people in their fifties today don't have anything more than 
$25,000 saved for retirement. You couple that with 
conversations that we're having here right now, today, with 
members of the Senate and the House who want to further 
diminish retirement savings by cutting Medicare and Social 
Security benefits, and you are on the verge of an absolute 
crisis. Eight million Americans today, senior Americans, 
struggling with hunger may be a paltry number compared to what 
we face 10 or 20 years from now.
    So it just underscores how important the Older Americans 
Act is, given the retirement savings crisis that we are 
currently living in today and I think that we are going to be 
even deeper into, especially if we make bad policy choices here 
in the Congress 10 years from now. And so that's why this 
debate is so important.
    I'll add one more piece to this. One of the most important 
things that the Area Agencies on Aging do in Connecticut and, I 
imagine, around the country is they try to help seniors manage 
some of the difficult choices that they have to make today, 
especially with regard to healthcare.
    We're talking about proposals in the House to effectively 
create more and more private sector choice in Medicare, 
something that I don't think is a great idea, but we do that 
today in Medicare Part D. And the only way that a lot of 
seniors are able to negotiate the myriad of choices that they 
have within that program is through the help that the Area 
Agencies on Aging give them.
    So it's not just about the direct support from nutrition 
programs. It's also about all of the counseling services that 
come through the Older Americans Act and come through these 
agencies, which are helping seniors today and may provide 
enormous help for them in the future.
    Mr. Chairman, I'm so glad to be having this hearing today. 
I look forward to working with you on a strong reauthorization 
of this act.
    Senator Sanders. Thank you very much, Senator Murphy.
    We have a wonderful panel, and let me begin by introducing 
Nancy Altman. Nancy has a 35-year background in the area of 
Social Security and private pensions. She serves as the co-
director of Social Security Works and chairman of the board of 
directors of the Pension Rights Center.
    She is also the co-chair of the Strengthen Social Security 
Campaign, a coalition of over 300 national and State 
organizations representing over 50 million Americans. So we are 
delighted that Nancy is with us.
    Ms. Altman, why don't you begin.

 STATEMENT OF NANCY J. ALTMAN, CO-DIRECTOR OF SOCIAL SECURITY 
  WORKS AND CHAIRMAN OF THE BOARD OF DIRECTORS OF THE PENSION 
                 RIGHTS CENTER, WASHINGTON, DC

    Ms. Altman. Thank you, Mr. Chairman.
    In the nearly half century since the Older Americans Act 
was first signed into law, it has more than proven its value. 
To fully understand its vital role, it's imperative that 
Members of Congress understand just how vulnerable the 
overwhelming majority of seniors are.
    Policymakers must examine the facts and reject pervasive 
but false stereotypes. Many hear that the percentage of seniors 
living in poverty has declined and that life expectancies have 
increased, and they jump to the wrong conclusion. They assume 
that most seniors are well off. As Chairman Sanders said, a 
picture is sometimes conjured up of hoards of affluent self-
centered retirees, driving luxury cars and enjoying endless 
rounds of golf. Nothing could be further from the truth.
    Almost one out of two Americans aged 65 or older are either 
already unable to meet basic needs of food, shelter, and 
clothing, or are one serious economic setback away from 
poverty. For groups that have been disadvantaged during their 
working years--African-Americans, Hispanics, and women--the 
percentages are even higher, and all those percentages increase 
with age.
    The overwhelming majority of other seniors are only 
slightly better off. Despite the stereotype of wealthy seniors 
living in gated communities, only the rare outlier has income 
that even would constitute upper middle class, much less 
wealthy. Nor do most seniors have substantial savings, stocks, 
or other liquid assets.
    Ignoring home equity, which, of course, is illiquid, half 
of those 65 and over have a total net worth of less than 
$28,000. Half of unmarried women age 65 or older have a total 
net worth of less than $8,000, again, aside from home equity.
    These figures should not be a surprise. The economic 
vulnerability of people as they age is not new. Destitute 
senior citizens are a byproduct of industrialization and 
urbanization. As people age, physical and mental decline often 
preclude work. Even for those capable of work, there is age 
discrimination. Though it's no longer legal, it still exists.
    And although the distinction is not frequently made in 
current policy discussions, wage insurance, not savings, is 
what's needed to prepare for the loss of wages as a result of 
old age. Social Security's mandatory universal wage insurance 
has reduced poverty dramatically, but its benefits are modest. 
No one is getting rich from Social Security.
    Moreover, as important as Social Security is, seniors 
remain economically vulnerable as long as they are one serious 
illness away from bankruptcy. That recognition led to the 
enactment of Medicare.
    Past Congresses also understood that as important as Social 
Security and Medicare are, more is needed to promote the well-
being of older Americans. Over 40 percent of those age 65 or 
older report difficulty or even inability doing such things as 
walking, shopping, or preparing meals. Again, it is the rare 
senior with sufficient affluence to hire cooks, chauffeurs, and 
other caregivers. That recognition led to the enactment of the 
Older Americans Act.
    S. 1028, the Older Americans Act Amendments of 2013, 
reauthorizes and improves in a variety of ways this vital and 
time-tested statute. Among other important provisions, it 
directs the Bureau of Labor Statistics to develop a more robust 
version of its consumer price index for the elderly. This has 
the potential for substantially improving the economic security 
of all older Americans, but particularly America's veterans, as 
well as the oldest of the old, the poorest of the poor, and 
those disabled at young ages.
    I see that I am just about out of time. But I discuss at 
some length in my written statement this provision and also the 
very valuable pension counseling projects which S. 1028 
reauthorizes.
    In conclusion, wage insurance in the form of Social 
Security and health insurance in the form of Medicare are 
essential to the economic well-being of the Nation's elderly. 
Both programs should be expanded. In addition, Congress should 
enact S. 1028 and adequately fund the Older Americans Act.
    Older Americans have contributed enormously to our Nation's 
commonwealth. Older veterans have served the Nation by 
jeopardizing life and limb, protecting the rest of us. 
Reauthorizing, improving, and fully funding the Older Americans 
Act is the least that a grateful nation can do to repay these 
sacrifices.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Altman follows:]

                 Prepared Statement of Nancy J. Altman

    Chairman Sanders, Ranking Member Burr, and members of the 
subcommittee, thank you for holding today's hearing on reducing senior 
poverty and hunger. Together with Social Security and Medicare, the 
Older Americans Act is vital to the national goal of ensuring that 
Americans age with security, independence, and dignity after a lifetime 
of work.
    As co-director of Social Security Works, I co-chair the Strengthen 
Social Security Campaign, a broad-based coalition of over 300 national 
and State organizations representing 50 million Americans, including 
seniors, workers, women, people with disabilities, veterans, children, 
young adults, people of low-income, the LGBT community, people of 
color, communities of faith, and others. I also chair the board of 
directors of the Pension Rights Center, and serve on the board of 
directors of the National Academy of Social Insurance.
    In 1982, I had the privilege to serve as the top assistant to Alan 
Greenspan in his capacity as the chairman of the so-called Greenspan 
commission, whose recommendations formed the basis for the Social 
Security Amendments of 1983. Prior to that, I was fortunate to serve as 
a legislative assistant to Senator John C. Danforth (R-MO).
    the truth about the economic vulnerability of america's seniors
    The Older Americans Act plays a crucial and integral role, with 
Social Security and Medicare, in reducing poverty and hunger in this 
country. To fully understand that vital role, it is essential to see 
clearly the economic and health status of America's older population.
    It is imperative that policymakers examine the facts and reject 
pervasive but false stereotypes about older Americans. One particularly 
pernicious but widely held myth is that most seniors are affluent self-
centered retirees, driving luxury cars, enjoying endless rounds of 
golf, and routinely dining out. Former Senator Alan Simpson (R-WY), for 
example, has described the overwhelming number of seniors who object to 
his proposals to cut Social Security as ``greedy geezers'' and ``these 
old cats 70 and 80 years old . . . who live in gated communities and 
drive their Lexus to the Perkins restaurant to get the AARP discount.'' 
Instead of correcting this false and pejorative stereotype, many seem 
to accept it as true. In an op ed column in the Washington Post, writer 
Dana Milbank, for example, applauded Senator Simpson's comments for 
``being colorful, provocative and honest in an arena that discourages 
all three.'' (Emphasis added.)
    Despite Milbank's claim of the accuracy of this stereotype, it is 
false. In truth, almost one out of two Americans aged 65 or older--48 
percent--are either already unable to meet basic needs of food, 
clothing, and shelter, or are one serious economic setback away from 
not being able to meet those most basic subsistence needs.\1\ The 
percentage of women in this category is even higher. More than one out 
of two--52.6 percent--are poor or economically vulnerable and at risk. 
For African-Americans over age 65, the percentage is higher still--63.5 
percent. For Hispanics, the percentage is 70.1 percent.
---------------------------------------------------------------------------
    \1\ Defined as incomes less than twice the U.S. Census Bureau's 
Supplemental Poverty Measure (SPM) threshold. The SPM is a more refined 
and comprehensive measure of poverty than the Federal Poverty Level 
(FPL). Developed 50 years ago, the FPL equals three times the cost of a 
1963 minimal food diet, adjusted for inflation, and simply counts 
before-tax cash income. In contrast, the Supplemental Poverty Measure 
equals the 33d percentile of expenditures on food, clothing, shelter, 
and utilities, and in determining incomes takes into account government 
benefits and a range of expenses, such as taxes, out-of-pocket medical 
costs, and work expenses. Twice the poverty line is a measure of 
economic deprivation used routinely by researchers and government 
programs. It is the measure used in the Older Americans Act Amendments 
of 2013 to determine the income level at which contributions for 
services are encouraged.
---------------------------------------------------------------------------
    Moreover, this economic vulnerability increases with age, as the 
chart below shows. For those aged 80 or over, the percentage of those 
who are poor or one economic shock away from becoming poor is 58.1 
percent. For women age 80 or over, the percentage is 63.4 percent. For 
African-Americans, it is 72.2 percent. For Hispanics, the percentage of 
those aged 80 or over who are poor or at risk is 74.1 percent. For 
those who fall into multiple categories of disadvantaged groups, the 
percentages are even higher. For example, more than three out of four--
76.6 percent--of Hispanic women, aged 80 or over, are poor or 
economically vulnerable.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The overwhelming majority of seniors who do not fall into the 
category of economic vulnerability are only slightly better off. 
Despite the stereotype of seniors wealthy enough to drive luxury cars 
and live in gated communities, only the rare outlier has income that 
would even constitute upper middle class, much less wealthy, as the 
following chart reveals.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Half of senior households have total incomes at or below $25,757. 
Three out of four senior households have total incomes, from all 
sources, of less than $50,000. More than 9 out of 10--92 percent--have 
incomes, from all sources, of less than $100,000.
    Unmarried seniors--widowed, divorced, or never married--have, on 
average, even lower total incomes. Half have total incomes at or below 
$17,261. Almost nine out of ten unmarried seniors--89 percent--have 
incomes less than $50,000. Nearly all--97 percent--have total incomes 
from all sources of less than $100,000. Only 0.3 percent of unmarried 
seniors have incomes of $200,000 or more.
    Nor do most seniors have assets on which to fall back. Half of 
those 65 and over have total net worth, excluding equity in their own 
homes, equal to or less than $27,322. Half of unmarried women aged 65 
or older have total net worth, excluding equity in their own homes, 
equal to or less than $7,754.
   the reasons behind the economic vulnerability of america's seniors
    These figures should not be a surprise. The economic vulnerability 
of people as they age is not a new phenomenon. Prior to 
industrialization and urbanization, most workers lived on farms with 
extended families that could care for them as they aged. With 
industrialization and urbanization, workers often moved away from 
extended families and found themselves dependent on wage incomes.
    The underlying conditions affecting the economic status of seniors 
were not so different from today. As people aged, ill health or 
ordinary physical and mental decline often precluded work. Even those 
capable of work generally found themselves unable to keep or find work. 
As a writer in 1912 explained, ``The young, the vigorous, the 
adaptable, the supple of limb, the alert of mind are in demand.'' It 
should be noted that the Age Discrimination in Employment Act was not 
enacted until 1967. Prior to that, employers could and did discriminate 
against older workers openly and legally. Want ads would routinely 
include age restrictions.
    Through no fault of their own, unemployed seniors rarely had 
sufficient assets to maintain their standards of living until death. 
Despite today's policy proposals directed at encouraging or mandating 
retirement savings, the vast majority of workers cannot accumulate 
sufficient savings during working years to last, for an average life 
expectancy or beyond, until death. \2\
---------------------------------------------------------------------------
    \2\ For a detailed analysis of why this is true, see Altman, ``The 
Striking Superiority of Social Security in the Provision of Wage 
Insurance,'' 50 Harvard Law School Journal on Legislation 109 (2013), 
available at http://www.harvardjol.com/archive/volume-50-number-1/.
---------------------------------------------------------------------------
    Although the distinction is not frequently made in current policy 
discussions, wage insurance, not savings, is what is needed to prepare 
for the loss of wages as the result of old age. Insurance is called for 
when financial loss is predictable for a group but unpredictable for 
individuals. People need life insurance, not savings, to guard 
dependents in the event of the policy holder's death. Similarly, 
because workers do not know how long they will live, they need life 
annuities or, if married, joint and survivor annuities, not private 
savings, for protection against a destitute old age. To manage the risk 
of lost income as the result of death, old age, or permanent and 
serious disability, wage insurance--like the life insurance, joint and 
survivor annuities, and disability insurance provided by Social 
Security--is what is called for.
    Prior to the enactment of Social Security, universal, mandatory 
wage insurance did not exist. As people aged and found that they were 
no longer able to work, they routinely moved in with their children. 
Those who had no children or whose children were unable or unwilling to 
support them typically wound up in the poorhouse. The poorhouse was not 
some Dickensian invention; it was an all-too-real means of subsistence 
for the elderly in the world immediately preceding the enactment of 
Social Security.
    When Social Security became law, every State but New Mexico had 
poorhouses (sometimes called almshouses or poor farms). The vast 
majority of the residents were elderly. Most of the ``inmates,'' as 
they were often labeled, entered the poorhouse late in life, having 
been independent wage earners until that point. A Massachusetts 
Commission reporting in 1910 found, for example, that only 1 percent of 
the residents had entered the almshouse before the age of 40; 92 
percent entered after age 60. These were the only ``gated communities'' 
in which most of America's elderly have ever resided.
    A second 1912 commentator vividly described the dreadful fate 
awaiting workers as they aged:

          ``After the age of 60 has been reached, the transition from 
        non-dependence to dependence is an easy stage--property gone, 
        friends passed away or removed, relatives become few, ambition 
        collapsed, only a few short years left to live, with death a 
        final and welcome end to it all--such conclusions inevitably 
        sweep the wage-earners from the class of hopeful independent 
        citizens into that of the helpless poor.''
   the essential roles of social security and medicare in providing 
                           economic security
    Destitute senior citizens were a byproduct of industrialization. 
Social Security's mandatory, universal wage insurance changed that. 
Prior to the enactment of Social Security, no national figures on 
poverty existed, but the States that surveyed their residents found 
that nearly half of those 65 years of age and over had less than 
subsistence income. It is no coincidence that when Social Security's 
modest but vital benefits are disregarded, around one out of two 
seniors today has income below subsistence, as well.
    The importance of Social Security is revealed in the following 
chart, which shows the sources of income for those aged 65 or older. As 
the chart displays, the bottom three-fifths of the income scale receive 
most of their incomes from Social Security. It is important to note 
that the chart is a snapshot in time, revealing the income in a single 
year. Many of those in the top two quintiles are still working. They 
are still receiving a large proportion of their incomes from earnings 
and have often not yet begun drawing down assets. Once they retire, 
however, their earnings will disappear and their savings will likely 
shrink. They are apt to join the ranks of the lower quintiles.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Although the chart does not disaggregate by race or gender, Social 
Security benefits are particularly important to women and minorities. 
Around half of all African-Americans, Hispanics, and unmarried women, 
aged 65 and older, receive 90 percent or more of their income from 
Social Security.
    The reliance on Social Security is even greater as people age and 
exhaust other sources of support. For those aged 80 and over, three out 
of four rely on Social Security for half or more of their income. For 
almost one out of two--45 percent--Social Security constitutes 90 
percent or more of their income. For widowed, divorced, or never-
married women and for people of color, the percentages are even higher 
at those ages.
    As important as Social Security is in its role of providing some 
measure of economic security to American workers and their families as 
they age, policymakers have understood that seniors would remain 
economically vulnerable as long as they were one serious illness away 
from bankruptcy. That recognition led to the enactment of Medicare. As 
vital as Social Security and Medicare are, past policymakers understood 
that these programs are necessary but not sufficient to ensure old age 
security.
  the indispensable role of the older americans act in improving the 
                            lives of seniors
    More than modest cash income in the form of Social Security and 
health insurance in the form of Medicare is needed to promote the well-
being of older Americans. As people age, their ability to drive and 
perform other activities of daily living are reduced by loss of 
balance, strength, flexibility, vision, hearing, and by other 
limitations. Over 40 percent of those aged 65 or older have difficulty, 
or even inability, in performing one or more daily tasks of living, 
such as walking, shopping, cooking, getting in and out of chairs, and 
light cleaning.
    Very few seniors, even those with incomes and assets above the 
median income figures, have sufficient affluence to hire chauffeurs, 
cooks and other caregivers. That recognition led to the enactment of 
the Older Americans Act in 1965, the same year that Medicare was 
enacted.
    In the nearly half century since the Older Americans Act was signed 
into law, it has more than proven its value. It has been reauthorized 
and improved under both Republican and Democratic administrations. It 
has worked synergistically with Social Security and Medicare to 
dramatically improve the security of seniors. The Older Americans Act 
Amendments of 2013 (S. 1028) continues that long tradition of extending 
and improving this important statutory achievement.
                      improving economic security
    The foundation of a secure old age is income. For those unemployed 
older Americans who can and want to work, S. 1028 reauthorizes the job-
based training program known as the Senior Community Service Employment 
Program.
    In addition, S. 1028 directs the Secretary of Labor, through the 
Bureau of Labor Statistics, to improve the Consumer Price Index for the 
Elderly (CPI-E), and report about it to Congress within 2 years. This 
is an extremely important proposal. It has the potential for 
substantially improving the economic security of older Americans.
Consumer Price Index for the Elderly
    As described above, Social Security benefits are vitally important. 
They are adjusted automatically every January when there has been 
inflation in the preceding year. Some describe these annual adjustments 
as ``increases,'' but they are not. They are intended to prevent 
erosion in the purchasing power of Social Security's modest benefits, 
which averaged just $1,267.55 in May 2013, or $15,210.60 a year, for 
retired workers and just $1,157.25 in May 2013, or $13,887 a year, for 
all beneficiaries.
    President Richard Nixon, who championed these automatic 
adjustments, explained their importance when he signed them into law on 
July 1, 1972:

          ``One important feature of this legislation which I greet 
        with special favor is the automatic increase provision which 
        will allow social security benefits to keep pace with the cost 
        of living. This provision is one which I have long urged, and I 
        am pleased that the Congress has at last fulfilled a request 
        which I have been making since the first months of my 
        Administration. This action constitutes a major break-through 
        for older Americans, for it says at last that inflation-proof 
        social security benefits are theirs as a matter of right, and 
        not as something which must be temporarily won over and over 
        again from each succeeding Congress.''

    As President Nixon recognized, this basic benefit protection is an 
extremely important feature of our Social Security system. Once workers 
retire, they no longer have salaries or wages which are capable of 
increasing with the increasing productivity of the Nation. A worker who 
earns $40,000 and retires in 2015 at age 66, for example, will receive 
a Social Security benefit that replaces 39.8 percent of those earnings. 
That retired worker will receive no gain as the Nation becomes 
wealthier and more productive. Rather, that income is, in colloquial 
terms, ``fixed.'' This explains why seniors on average have much lower 
incomes than the general population. Indeed, those aged 80 and over 
have median and average incomes less than half the incomes of working-
age adults.
    If Social Security were not adjusted to take account of inflation, 
Social Security benefits, which already fail to reflect national 
productivity gains once they begin to be paid, would slowly but 
inexorably erode over time in real terms as beneficiaries aged. This is 
no small matter. Two-thirds of seniors receive half or more of their 
incomes from Social Security. These earned benefits would lose value at 
the same time that seniors exhausted other assets and that their health 
care costs were increasing. It is important to note that most assets of 
seniors are not protected against inflation and are not guaranteed for 
life. Full inflation protection is virtually nonexistent under 
employer-sponsored pension plans.
    To ensure that the value of Social Security's vital but modest 
benefits does not erode as people age, it is crucial that the automatic 
adjustment be as accurate as possible, and does not under-measure 
inflation. At the time of the enactment of automatic adjustments, in 
1972, the Bureau of Labor Statistics produced only one measure of 
inflation--which today is referred to as the Consumer Price Index for 
Urban Wage Earners and Clerical Workers, or CPI-W. Ironically, the 
index measures the cost of living of workers, not retirees, but was the 
only, and so best, measure available.
    In recognition, though, that seniors have very different 
expenditures from those of workers or the population as a whole, the 
Older Americans Act of 1987, signed into law by President Ronald 
Reagan, included a provision directing the Secretary of Labor to 
develop, through the Bureau of Labor Statistics, a consumer price index 
for older Americans. In response, the Bureau of Labor Statistics 
created and continues to produce the Consumer Price Index for the 
Elderly, referred to by the shorthand, CPI-E.
    In calculating the CPI-E, the Bureau of Labor Statistics takes the 
work it does in constructing the Consumer Price Index for All Urban 
Consumers and narrows it to capture the subset of those aged 62 and 
over. The Bureau has never, however, conducted surveys of expenditures 
and points of purchase tailored specifically to those aged 62 and 
older. This is important because seniors often buy different goods in 
different quantities and shop at different stores in different 
frequency than the general population. Consequently, the Bureau has 
labeled the CPI-E, ``experimental.'' S. 1028 would require the Bureau 
of Labor Statistics to undertake those various surveys, so that the 
CPI-E would no longer be ``experimental.''
    The current CPI-E has historically reported higher rates of 
inflation than the consumer price indices measuring the inflation 
experienced by workers or the general population. This is unsurprising. 
On average, seniors spend a higher percentage of their incomes on 
health care than workers or the general population, and health care 
costs have grown, and are projected to continue to grow, at a faster 
rate than other goods and services. On average, seniors spend a lower 
percentage of their incomes on apparel, transportation, and recreation 
than workers or the general population, and those goods and services 
have not experienced as rapid inflation. If a more robust CPI-E were 
produced, as S. 1028 mandates, the differential in inflation between 
what seniors experience and what workers and the general population 
experience could be even greater.
    As the existing CPI-E reveals, the current measure of inflation 
used to automatically adjust Social Security benefits under-measures 
the inflation experienced, on average, by Social Security 
beneficiaries. Despite that fact, some prominent policymakers have 
proposed switching to a less accurate, stingier inflation adjustment 
for seniors than the already inadequate current-law measure. 
Notwithstanding rhetoric to the contrary, those policymakers implicitly 
acknowledge that the shift to the even less accurate measure, the so-
called chained CPI, for Social Security and other programs that serve 
the elderly and those with serious and permanent disabilities is 
nothing more than a benefit cut masquerading as a technical adjustment. 
Three leading proposals to shift to the chained CPI--the proposal of 
former Senator Alan Simpson and Erskine Bowles, the proposal of the 
Debt Reduction Task Force chaired by former Senator Pete Domenici and 
Alice Rivlin, and the proposal contained in the Administration's 
current budget--all call for measures to ameliorate, to a small extent, 
the impact of the chained CPI, as the graph below shows.\3\
---------------------------------------------------------------------------
    \3\ Social Security Works created the graph from calculations based 
on estimates of the Social Security Office of the Actuary, Social 
Security Administration. ``Average Earner'' is a worker with career 
average earnings of $40,728.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    These proposals are poorly targeted benefit cuts. As the graph 
reveals, the largest cuts fall on the oldest old, because the cut 
compounds over time. The increasingly large cut occurs as other 
resources are exhausted and health costs are increasing, on average. In 
addition, the benefit cut in the form of the chained CPI creates a 
substantial burden on the poorest in society.\4\
---------------------------------------------------------------------------
    \4\ The Administration's budget proposes to exempt means-tested 
programs from the switch to the chained CPI, but this still leaves many 
poor and near-poor unprotected. The Supplemental Security Income 
program (``SSI'') is a program for the aged, blind, and disabled who 
have extremely limited income and assets. If an individual receives 
Social Security, because he or she worked a sufficient number of 
quarters to qualify, the SSI benefit is reduced dollar for dollar after 
disregarding the first $20. There are 2.8 million people who receive 
income from both Social Security and SSI--the so-called dual 
eligibles--so part of their income will still be subject to the benefit 
cut. Moreover, because the SSI income and asset limits are so meager, 
there are at least 9.4 million poor or near-poor who receive only 
Social Security, and so would be subject to the cut imposed by the 
chained CPI. (Near poor is defined as within 125 percent of the Federal 
Poverty Level.)
---------------------------------------------------------------------------
    In 2012, around 9.6 million veterans received Social Security. That 
represents 21 percent of all adult beneficiaries. In addition, a number 
of veteran-specific programs are adjusted for inflation in the same way 
as Social Security. Because of the number of programs that would be 
subject to the chained CPI, veterans could receive double, triple, or 
more cuts from the chained CPI.\5\ It is not surprising that numerous 
groups representing veterans, including the American Legion and the 
Veterans of Foreign Wars, oppose the chained CPI--not just for narrowly 
defined veterans programs, but also for Social Security and other 
programs crucially important to those who have served our Nation in 
uniform.
---------------------------------------------------------------------------
    \5\ Military and veterans benefits that are indexed in the same 
manner as Social Security include Military Retirement pensions, for 
which many veterans are eligible; Veterans Pension benefits; Veterans 
Disability Compensation; and Dependency and Indemnity Compensation. 
Other Federal programs that veterans benefit from, beyond Social 
Security and veteran-specific programs, would be affected, as well. For 
a more detailed discussion of the programs affected, see Alison 
Shelton, ``Inflation Indexation in Major Federal Benefit Programs: 
Impact of the Chained CPI,'' AARP Public Policy Institute, March 2013, 
available at http://www.aarp.org/work/social-security/info-03-2013/
major-federal-benefit-programs-impact-of-chained-cpi-AARP-ppi-econ-sec
.html.
---------------------------------------------------------------------------
    In addition to improving the economic security of seniors in 
general, particularly the oldest of the old and the poorest, switching 
to the more appropriate CPI-E would help veterans. Those who have 
served our Nation in the military deserve not only our immense 
gratitude. They deserve the most secure old age the Nation can provide. 
They certainly deserve an accurate cost of living adjustment for the 
benefits they have earned. S. 1028 would move the Nation an important 
step further toward that goal.\6\
---------------------------------------------------------------------------
    \6\ As a general point, it is a great improvement to the Older 
Americans Act that veterans, as well as LGBT, Holocaust survivors, and 
Alzheimer's, are explicitly named as a category deserving to benefit 
from additional outreach. It is also an important improvement that S. 
1028 adds an objective regarding services that are culturally and 
linguistically responsive to seniors and their caregivers. On a related 
note, the Strengthen Social Security Coalition recently released a 
transition report for the new Commissioner of the Social Security 
Administration. The report discusses the need to improve access for 
those with limited English proficiency. The report is available at 
http://www.strengthensocialsecurity.org/transitionreport.
---------------------------------------------------------------------------
Pension Counseling and Information Program
    Further improving the economic security of seniors, S. 1028 
reauthorizes the Pension Counseling and Information Program. Pensions 
and other public and private retirement plans provide important 
supplements to Social Security for those who have them. They are 
complicated legal arrangements, however. Most beneficiaries of these 
plans cannot afford the legal assistance they may need to obtain the 
retirement benefits they have earned.
    The Pension Counseling and Information Program funds six regional 
counseling projects, which provide assistance and information to 
individuals in 29 States. The Program also funds one national pension 
assistance resource center, the Pension Rights Center, which provides 
consultation, technical assistance and substantive legal training to 
the six regional projects, as well as Area Agencies on Aging, Aging and 
Disability Resource Centers, legal services providers, and others. The 
Pension Rights Center also created and hosts PensionHelp America, a Web 
site for those who are outside the jurisdiction of, or simply unaware 
of, the regional projects.
    The Program is both extremely valuable and cost effective. Since 
its inception in 1993, the Program has recovered more than $175 million 
in benefits for 50,000 clients, a return of $8 for every Federal dollar 
spent on the program. A major shortcoming, however, is that it only has 
sufficient funding to cover 29 States. I recommend that Congress enact 
S. 1028 and increase funding, as the bill recommends, of all the 
reauthorized programs, including this one, which would allow residents 
of all 50 States to have access to a regional counseling project.
                        improving food security
    Notwithstanding the great wealth of the United States and the 
modest economic security provided by Social Security and Medicare, 
hunger is a serious problem affecting seniors. In 2011, nearly 1 in 12 
Americans aged 60 or older experienced ``food insecurity,'' a phrase 
coined by the U.S. Department of Agriculture to describe those with 
uncertain or limited access to an adequate supply of food. Three 
hundred thousand veterans age 60 or over fell into this category. 
Almost one in five grandparents caring for grandchildren reported food 
insecurity, as well. These statistics would be worse without the Older 
Americans Act programs which provide meals in group settings, delivered 
to homes of those who cannot travel, transportation services for those 
who can, and other related services and programs. S. 1028 reauthorizes 
and improves these crucial programs. Congress should repeal 
sequestration and instead increase the funding for these vital 
programs.
                               conclusion
    Wage insurance in the form of Social Security and health insurance 
in the form of Medicare are vital to the economic well-being of the 
Nation's elderly. Both programs should be expanded. As crucial as these 
programs are, though, they are not sufficient. The services and 
programs authorized under the Older Americans Act work synergistically 
with Social Security and Medicare, to reduce poverty and increase 
economic security and to reduce hunger and increase food security. In 
addition, the Older Americans Act serves other vital goals, including 
reducing elder abuse and increasing physical security, providing 
support for caregivers, and facilitating, through those and other key 
services, the ability of seniors to continue to live at home as they 
age.
    S. 1028, the Older Americans Act Amendments of 2013 reauthorizes 
and improves this vital and time-tested statute. Congress should enact 
it and then ensure that its provisions are adequately funded. Older 
Americans have contributed enormously to our Nation's common wealth. 
Older veterans have served the Nation by jeopardizing life and limb. 
Reauthorizing, improving, and fully funding the Older Americans Act is 
the least that a grateful nation can do to repay these sacrifices.

    Senator Sanders. Thank you very much, Ms. Altman.
    Our second witness is Ellie Hollander. Ms. Hollander has 
over 25 years of leadership and management experience in both 
non-profit and for-profit organizations. She is the president 
and CEO of the Meals on Wheels Association of America, and I 
just want to congratulate Ms. Hollander for doing an 
extraordinarily good job for that vitally important program.
    Ms. Hollander.

  STATEMENT OF ELLIE HOLLANDER, PRESIDENT AND CHIEF EXECUTIVE 
    OFFICER OF THE MEALS ON WHEELS ASSOCIATION OF AMERICA, 
                         ALEXANDRIA, VA

    Ms. Hollander. Chairman Sanders, Ranking Member Burr, and 
Senators, thank you very much for the opportunity to be here 
today and to testify before you.
    I'm Ellie Hollander, president and CEO of the Meals on 
Wheels Association of America, representing senior nutrition 
programs in all 50 States and territories. The majority of 
these programs to which I will refer today collectively as 
Meals on Wheels rely in some part on Federal funding authorized 
through the Older Americans Act.
    Every day, Meals on Wheels programs provide nutritious 
meals and social contact, whether directly in their homes or in 
congregate settings, to seniors 60 years and older who are at 
significant risk of hunger or losing their ability to remain 
independent and in their own homes where they want to be. Most 
are over 75 and need help with daily tasks, like going outside, 
dressing, and bathing. Many are isolated and living alone and 
in poverty. They have serious health conditions and take 
between 6 and 26 medications.
    For most of these seniors, Meals on Wheels is their 
lifeline, seniors like Mary. Mary is 90 years old and she lives 
in eastern Pennsylvania. Until about a year ago, she was 
preparing her own meals. But after a debilitating fall and a 
long-term recovery, it is no longer safe for her to cook.
    Living on a very modest pension and Social Security, it's 
become more difficult for her to make ends meet. And, sadly, 
her pension check, which used to cover both her gas and 
electric bills, barely covers her electric bill today.
    For those of you on this subcommittee who have personally 
delivered meals, stories like Mary's are all too familiar. But 
for those of you who have not yet had the privilege, I would 
welcome the opportunity to join you on some meal deliveries. I 
think you will find it sobering.
    To enable us to continue to help Mary and other millions of 
seniors like her, legislative action is critically necessary to 
reauthorize and adequately fund the Older Americans Act senior 
nutrition programs. There are six reasons why.
    No. 1, the need is severe. Nationally, there are 8.3 
million seniors currently struggling with hunger. Yet we are 
providing nutritious meals to only 2.5 million. While the 
infrastructure exists to complete that gap, to fill the gap, 
the resources simply don't.
    No. 2, the demand is increasing. The demographic swing to 
an aging population is already in motion. Baby boomers are 
turning 60 at a rate of 12,000 a day, and by 2030, the 
population will double to over 70 million.
    No. 3, funding levels have not kept pace. Real funding 
levels adjusted for inflation have decreased 18 percent over 
the past 20 years. At the same time, the population over 60 has 
increased 34 percent, leaving a funding deficit of about $514 
million just to return to 1992 levels.
    No. 4, there is an unrecognized and a substantial return on 
investment. Meals on Wheels programs enable seniors to continue 
to live at home, averting far more costly healthcare 
alternatives, such as hospitals and nursing homes. This, in 
turn, reduces Medicare and Medicaid expenses, potentially 
saving billions of dollars.
    The Center for Effective Government recently found that for 
every $1 invested in Meals on Wheels programs, there is up to a 
$50 return in Medicaid savings alone. And we know, as Chairman 
Sanders referenced, that we can feed a senior meals on wheels 
for an entire year for the same cost for that senior to be in 
the hospital for 1 day or 6 days in a nursing home.
    No. 5, sequester has added insult to injury, exacerbating 
an already horrific situation due to year-over-year declines in 
both Federal and State funding, increased transportation and 
food costs, and diminished individual contributions. The impact 
of the sequester has added another $51 million in reductions to 
these programs between now and September 30th.
    And, finally, No. 6, the impact of the sequester on seniors 
is real, and it must be stopped. Based on a member survey that 
we recently conducted, the pain is being felt. Almost 70 
percent are cutting the number of meals served. Over 70 percent 
are establishing for the first time or adding to existing wait 
lists. More than half are reducing the number of seniors 
served. Almost 40 percent are reducing the number of days they 
deliver meals, and one in six programs are closing their doors 
altogether.
    Since my start with Meals on Wheels on February 11, I've 
had the opportunity to experience firsthand what Meals on 
Wheels volunteers and staff encounter every day. I now fully 
understand what it means to say that we are more than just a 
meal, that we are, in fact, a social connection, a safety 
check, a friend, a member of the extended family.
    Meals on Wheels programs are effective and efficient, and 
they are doing precisely what they were designed to do. Even if 
the social and moral obligation doesn't prompt immediate action 
to reauthorize and bolster the Older Americans Act, the 
business and economic cases certainly should.
    Due to the urgency of this issue, I'm joined today by my 
entire board of directors who, along with me, wish to extend 
our appreciation to you, Chairman Sanders, and the members of 
the subcommittee for your leadership and commitment to 
addressing the critical issue of senior hunger in America. I 
sincerely thank you for the opportunity to testify.
    [The prepared statement of Ms. Hollander follows:]

                 Prepared Statement of Ellie Hollander

    Chairman Sanders, Ranking Member Burr, and members of the 
subcommittee, good morning. Thank you for the opportunity to testify 
today at this critical hearing about the issues of hunger and poverty 
among our senior citizens and the pivotal role of the Older Americans 
Act, specifically Senior Nutrition Programs authorized under title III 
C.
    I am Ellie Hollander, president and CEO of the Meals On Wheels 
Association of America, the oldest and largest national organization 
comprised of and representing local, community-based Senior Nutrition 
Programs in all 50 States and territories. Some of these programs serve 
meals at congregate locations like senior centers, some deliver meals 
directly to the homes of seniors whose mobility is limited, and the 
majority of the members of our Association provide both services.
    Although I have only been with the Meals On Wheels Association for 
a few months, I have, in that time, witnessed the efforts of this 
subcommittee and in particular, Mr. Chairman, your leadership and 
commitment to our seniors and to raising awareness about the critical, 
growing, and often hidden issue of senior hunger in our country. On 
behalf of our membership and our board of directors, who have joined me 
for this hearing today, I want to express our deepest gratitude.
    As a national organization, the Meals On Wheels Association 
supports local Senior Nutrition Programs by:

    <bullet> Providing education, training and professional development 
for Meals on Wheels staff and volunteers to equip them with the 
specific skills and tools they need to meet the ever-growing 
nutritional demands of the seniors in their communities;
    <bullet> Securing financial and other resources to assist local 
programs in keeping their programs sustainable and advancing their 
mission so no senior goes hungry;
    <bullet> Funding and conducting timely and relevant research on 
senior nutrition, best practices and the social and economic impact of 
Senior Nutrition Programs; and,
    <bullet> Raising awareness about the issue of senior hunger and the 
tireless work undertaken every day by our local Meals on Wheels 
programs.

    For more than 40 years, Older Americans Act Nutrition Programs, in 
communities large and small, urban and rural, have been serving our 
country's most vulnerable, frail and isolated seniors. What started as 
a demonstration project has grown into a highly effective community-
based, nationwide network of more than 5,000 Senior Nutrition Programs. 
While not all programs receive Federal funding, for my testimony today 
I am referring to those that rely, in part, on Federal funding provided 
through the Older Americans Act. That funding is then leveraged by 
those programs to help raise the remaining funds needed to provide 
daily nutritious meals and social contact to seniors 60 years of age or 
older who are at significant risk of hunger and losing their ability to 
remain independent in their own homes. Of course, this is one of the 
primary purposes of the Older Americans Act, a successful, community-
driven model that needs to be reauthorized and funded at far more 
appropriate levels that take into consideration inflation, demographic 
shifts, and the growth in senior hunger and poverty rates.
    However, before I get into the numerous and compelling reasons why 
the Older Americans Act should be reauthorized, strengthened, and 
properly funded, we should not lose sight of the seniors for whom these 
programs were created to serve and for whom it is their lifeline today, 
as well as the millions of other seniors who need meals but are not 
able to receive them.
    Seniors like Mary. Mary is 90 years old and lives in eastern 
Pennsylvania. She began receiving meals from her local Meals on Wheels 
program in August of last year. Up to that time, she was preparing her 
own meals, but after a fall that required hospitalization and weeks of 
therapy, it was no longer safe for her to be at the stove. Married for 
over 56 years, Mary and her late husband, who worked as an auto 
mechanic, raised two children, a daughter and a son. For 18 years she 
worked as a sewing machine operator in a local sewing mill. 
Financially, it is very difficult to make ends meet, living on a very 
modest pension and Social Security. Sadly, Mary's pension check used to 
cover the cost of both her electric and gas bills, but now it barely 
pays the electric bill. Mary is enjoying the meals she receives and 
states, ``Meals on Wheels is a marvelous program. Every volunteer is 
tops, so concerned, always happy and asking how are you feeling when 
they visit to deliver my meals.''
    For those of you on this subcommittee who have personally delivered 
meals, stories like Mary's are all too familiar. For those of you who 
have not yet had the privilege to deliver meals in your State, I would 
like to personally extend an invitation to do so with me. The reality 
is sobering. For those seniors who are struggling with hunger, it often 
means choosing between paying for medications or eating, or paying the 
electric bill or eating. These are tradeoffs that no one should have to 
make, especially our most vulnerable seniors.
    Of those receiving Meals on Wheels:

    <bullet> The majority are women who are over 75 and live alone;
    <bullet> 63 percent have between 6 to 15 serious health conditions, 
such as heart disease, hypertension, arthritis, and diabetes;
    <bullet> 61 percent take between 6 to 26 medications; and,
    <bullet> 39 percent live in poverty.\1\
---------------------------------------------------------------------------
    \1\ National Survey of Older Americans Act Participants. U.S. 
Department of Health and Human Services, Administration on Aging. 2011. 
http://www.agidnet.org.

    The profile of those seniors who are able to make it out of their 
home and into a congregate setting, such as a senior center, is 
---------------------------------------------------------------------------
slightly better:

    <bullet> The majority are also women who are over the age of 75 and 
nearly 40 percent live alone;
    <bullet> 40 percent have between 6 to 15 serious health conditions, 
such as those listed above;
    <bullet> 31 percent take between 6 to 26 medications;
    <bullet> 26 percent live in poverty; and,
    <bullet> 72 percent need help going outside.\2\
---------------------------------------------------------------------------
    \2\ Id.

    For both Meals on Wheels and congregate meal recipients, an 
overwhelming majority need help bathing, dressing, going to the 
bathroom, and managing their medications. On top of these sad 
realities, many of the basic necessities of daily life that we take for 
granted every day, such as interacting with others and having access to 
nutritious food, are simply not options without Older Americans Act 
Nutrition Programs.
    You probably have heard it said many times that Meals on Wheels is 
``more than just a meal.'' That's because in addition to a daily 
nutritious meal, it is a safety check, a social visit from someone who 
cares, who is reliable and trusted. In short, Meals on Wheels is their 
lifeline, enabling seniors to live at home, independently and in better 
health.
    So now that I have described the typical profile of the seniors 
being served, let's delve into the driving reasons why reauthorizing, 
strengthening, and providing adequate funding for the Older Americans 
Act is a necessity:

    The need is severe. We are merely scratching the surface on meeting 
the needs of an exponentially increasing hungry senior population as 
the gaps widen between need/demand and availability/affordability. 
Since the onset of the recession, the number of seniors struggling with 
hunger has increased in 44 States, including in each of the States that 
members of this subcommittee represent.\3\ Nationally, there are 8.3 
million seniors \4\ currently struggling with hunger. We are providing 
nutritious meals to only 2.5 million.\5\ The difference in those 
numbers is devastating--nearly 6 million American seniors are still in 
need of reliable, nutritious meals. While the infrastructure exists to 
fill that gap, the resources fall substantially short.
---------------------------------------------------------------------------
    \3\ Senior Hunger Report Card. National Foundation to End Senior 
Hunger. May 2012. http://bit.ly/13S6C3s.
    \4\ Ziliak, James & Craig Gundersen. Senior Hunger in America: 
2010. University of Kentucky Center and University of Illinois. May 
2012. http://bit.ly/ZVLL01.
    \5\ 2011 Older Americans Act State Program Reports. U.S. Department 
of Health and Human Services, Administration on Aging. March 2013. 
http://www.agidnet.org/.
---------------------------------------------------------------------------
    The demand is increasing. The demographic swing to an aging 
population is already in motion. Baby Boomers are turning 60 at a rate 
of 12,000 a day. By 2030, the senior population will double to over 70 
million.\6\ If one in seven seniors today is struggling with hunger, it 
is overwhelming to imagine 10 million struggling with hunger in a mere 
17 years in the greatest and most affluent country in the world.
---------------------------------------------------------------------------
    \6\ Aging Statistics. U.S. Department of Health and Human Services, 
Administration on Aging http://www.aoa.gov/Aging_Statistics/.
---------------------------------------------------------------------------
    Funding levels have not kept pace. ``Real'' funding levels 
(adjusted for inflation) for Older Americans Act Nutrition Programs 
have decreased 18 percent from 1992 to 2012. At the same time, the 
population over 60 has increased 34 percent.
    Programs effectively leverage Federal funding to raise more. Older 
Americans Act funding provides on average about 31 percent of home 
delivered and 44 percent \7\ of congregate programs' total annual 
budget. To bridge the funding gap, programs cultivate and leverage 
public-private partnerships to garner grants and donations from State 
and local communities, companies, private foundations, and individuals 
(including recipients and/or their families who may be able to pay for 
or contribute to the cost of their meals).
---------------------------------------------------------------------------
    \7\ 2011 Older Americans Act State Program Reports. U.S. Department 
of Health and Human Services, Administration on Aging. March 2013. 
http://www.agidnet.org/.
---------------------------------------------------------------------------
    There is an unrecognized but substantial return on investment. 
Meals on Wheels and congregate programs, which help keep seniors 
independent in their communities and able to live in their own homes 
for as long as possible, avert far more costly alternatives such as 
hospital and nursing home care. This, in turn, reduces Medicare and 
Medicaid expenses.
    The Center for Effective Government recently found that for every 
$1 invested in Meals on Wheels programs, there is up to a $50 return in 
Medicaid savings alone.\8\ And we can feed a senior through Meals on 
Wheels for an entire year for about the same cost for that senior to be 
in the hospital for 1 day,\9\ or a nursing home for 6 days.\10\ 
Contributing to the business case, Brown University \11\ conducted a 
recent study that found that by investing more in home-delivered meals, 
we can keep more seniors out of nursing homes. Specifically, the 
research found that for every additional $25 a State spends on home-
delivered meals each year per person over 65, the low-care nursing home 
population--seniors who are nursing home eligible but could remain in 
their homes with only a little outside support--decreases by a 
percentage point. In terms of Medicaid spending, 1 percentage point can 
translate to billions of dollars in savings.
---------------------------------------------------------------------------
    \8\ Schieder, Jessica & Lester, Patrick. Sequestering Meals on 
Wheels Could Cost the Nation $489 Million per Year. The Center for 
Effective Government. April 2013. http://bit.ly/16jmmRU.
    \9\ Average Costs to Community Hospitals Per Patient: 1990-2009. 
U.S. Census Bureau, Statistical Abstract of the United States. 2012. 
http://1.usa.gov/X0XlWc.
    \10\ Market Survey of Long-Term Care Costs. MetLife Mature Market 
Institute. 2012. http://bit.ly/Z6op5F.
    \11\ Thomas, Kali & Mor, Vincent. The Relationship between Older 
Americans Act Title III State Expenditures and Prevalence of Low-Care 
Nursing Home Residents. Brown University. December 2012. http://bit.ly/
16wl0B2.
---------------------------------------------------------------------------
    Sequester has added insult to injury. Exacerbating an already 
horrific situation compounded by year-over-year declines in funding at 
both the Federal and State level, increased transportation and food 
costs, and diminished individual contributions yet to rebound from the 
recession, the impact of the sequester on Older Americans Act Nutrition 
Programs has added another $51 million in reductions to these programs 
for the remainder of 2013--compressed between now and September 30.\12\ 
There is no telling what the ``run rate'' impact of the sequester will 
impose for the subsequent years during which it is scheduled to 
continue, but it won't be pretty.
---------------------------------------------------------------------------
    \12\ Funding Allocations to States and Tribal Organizations. U.S. 
Department of Health and Human Services, Administration on Aging. May 
2013. http://1.usa.gov/16vSXSm.
---------------------------------------------------------------------------
    The impact of the sequester on seniors is real, and it must be 
stopped. Based on a survey we recently conducted of our member programs 
that receive Federal funding through the Older Americans Act:

    <bullet> Almost 70 percent are cutting the number of meals served;
    <bullet> Over 70 percent are establishing for the first time or 
adding to existing waiting lists;
    <bullet> More than half are reducing the number of seniors being 
served;
    <bullet> 40 percent are eliminating staff positions;
    <bullet> Almost 40 percent are reducing the number of days they 
deliver meals;
    <bullet> 25 percent are reducing the number of days open for 
congregate sites; and,
    <bullet> 1 in 6 programs are closing congregate sites or home-
delivered meal programs altogether.\13\
---------------------------------------------------------------------------
    \13\ Sequester Survey. Meals On Wheels Association of America. June 
2013. http://bit.ly/17rq4JQ.

    The objectives of the Older Americans Act Nutrition Programs are to 
reduce hunger and food insecurity, to promote socialization and health 
and well-being. And services are targeted to those with the greatest 
economic and social need, including most at risk for nursing home 
placement. We know that these programs are saving lives and taxpayer 
dollars every day. They are efficient and effective, and they are doing 
precisely what they were designed to do.
    Since my start with Meals On Wheels on February 11, at a time when 
the threat of the sequester was looming, I have traveled across the 
country to visit individual programs in Georgia, Indiana, Wisconsin, 
Kansas, Massachusetts, Texas, and South Carolina. While I have learned 
that each Meals on Wheels program is unique, the challenges they face 
are nearly uniform.
    I have had the opportunity to conduct meal deliveries in nearly 
every State I have visited. And I have seen firsthand the full 
continuum of experiences--from my visit with Mrs. Gove, confined to a 
wheelchair from polio who volunteers as a Caller Coordinator for her 
church, to Mr. Hiatt, a farmer who had recently been discharged from 
the hospital following back surgery, to Mr. Huebschen, a distinguished 
military veteran who after 50 years in a loving marriage was recently 
widowed. I have arrived when someone was in immediate need of 
assistance and moments after a recipient passed away. I have been 
welcomed into homes and offered a seat to visit with people who had 
never met me before, simply because I announced I was from Meals on 
Wheels. Now, I fully understand what it means to say that we are more 
than just a meal; that we are, in fact, a social connection, a safety 
check, a friend, a member of their extended family. I cannot imagine 
how we can allow these seniors in need--who are our parents, 
grandparents, aunts, uncles, teachers, neighbors, veterans--to bear the 
brunt of our inability to work in a nonpartisan fashion to prop up this 
program which is, in fact, working well. Even if the moral obligation 
doesn't prompt action, the business and economic cases certainly 
should.
    Thank you sincerely for the opportunity to testify before the 
subcommittee. I hope it has been insightful and compelling. I look 
forward to answering any questions you might have and to working with 
you to address the critical issue of senior hunger in America.

    Senator Sanders. Ms. Hollander, thank you very, very much.
    Our next panelist is Howard Bedlin. Mr. Bedlin has served 
as an advocate for older Americans for over 30 years, including 
10 years at AARP and more than 15 years in his current position 
as vice president for Public Policy and Advocacy at the 
National Council on Aging.
    Mr. Bedlin, thanks for being with us.

 STATEMENT OF HOWARD BEDLIN, VICE PRESIDENT, PUBLIC POLICY AND 
   ADVOCACY AT THE NATIONAL COUNCIL ON AGING, WASHINGTON, DC

    Mr. Bedlin. Thank you, Chairman Sanders, Ranking Member 
Burr, and members of the subcommittee. On behalf of the 
National Council on Aging, I appreciate the opportunity to talk 
with you today.
    NCOA is the Nation's oldest service and advocacy 
organization representing seniors and those who serve them, and 
our particular focus is on the vulnerable and disadvantaged 
seniors. Since two of my colleagues are addressing hunger 
issues, I'll focus my remarks on the critical role the Older 
Americans Act plays in reducing senior poverty and economic 
insecurity, an area that few understand or appreciate.
    We estimate there are over 23 million Americans over age 60 
who are economically insecure, struggling with rising health 
and energy bills, growing debt, and job loss. The recession hit 
seniors hard. Millions have seen their retirement savings 
diminish. Median family wealth declined by over 15 percent 
among those aged 55 to 64, and by 14 percent among those 65 to 
74.
    For example, an Area Agency on Aging professional in 
Raleigh, NC, recently told us,

          ``I'm regularly dealing with seniors who have credit 
        card debt that's often snowballed into thousands of 
        dollars with no way possible to get out from under the 
        debt and credit card payments not leaving enough income 
        to cover basics like food and utilities.''

    For many seniors, the only solution is to work longer or 
return to work from retirement, but they face serious 
challenges. The unemployment rate for workers over age 65 is 
the highest it's been since the Great Depression, and they 
spend far too much time struggling in search of work.
    Older Americans Act Title V, the Senior Community Service 
Employment Program, or SCSEP, is the only workforce program 
designed exclusively to maximize the contributions of 
vulnerable seniors. Nearly 90 percent of participants live in 
poverty, and more than a third are homeless or at risk of 
homelessness.
    Beyond job training and placement, program participants 
provide millions of hours of community service with a value 
estimated at over a billion dollars. If Congress is serious 
about creating job opportunities for Americans in need, we 
should be investing more in the SCSEP program.
    Seniors with income just above poverty and those with 
chronic illness spend more of their income out-of-pocket on 
healthcare than any other group. Older Americans Act Title III-
B, Home and Community-Based Supportive Services, plays a modest 
but critical role in helping to address a growing crisis 
largely ignored by Congress, the fact that Americans are forced 
to impoverish themselves by spending down their life savings 
before receiving help with needed long-term care. With median 
nursing home costs now at $84,000 a year, it doesn't take long 
to essentially go bankrupt onto Medicaid.
    Title III-B also supports Multi-Purpose Senior Centers, a 
gateway to community services that prolong independence, 
improve economic well-being, and promote community engagement.
    A third program, title III-D, provides health promotion and 
disease prevention services that reduce the need for 
hospitalization and emergency room visits. The aging network is 
uniquely positioned to provide the support and education 
seniors need to better care for themselves and stay healthier 
longer.
    For example, title III-D provides modest funding for 
evidence-based chronic disease self-management and elder falls 
prevention programs. Elder falls are common--one in three 
seniors fall every year--expensive, projected to cost the 
Nation $60 billion in 2020, and often avoidable. Research has 
shown that several community-based programs reduce falls and 
produce a positive return on investment.
    A fourth program was added in the 2006 reauthorization with 
subsection 202(20) under title II that strengthen benefits 
outreach and enrollment assistance to low-income seniors, which 
is really important, because only about a third of low-income 
seniors eligible for assistance actually get it, for example, 
with Medicare low-
income protections and SNAP. The 2006 amendments further 
strengthened the program's ability to promote economic security 
with new provisions to help prevent elder financial abuse and 
exploitation, which cost victims an estimated $3 billion a 
year.
    Going forward, the Older Americans Act works well and major 
structural changes are not needed. The reauthorization process, 
which should occur every 5 years, provides an important 
opportunity to reassess the Act's successes and limitations and 
modernize services. Particularly, in times of fiscal restraint, 
changes can be made by identifying and incorporating innovative 
best practices to improve efficiency and outcomes.
    NCOA urges members of the HELP Committee to continue the 
tradition of bipartisan and timely reauthorization of this 
important statute and come together to pass a bill before the 
August recess. S. 1028, the Older Americans Act Amendments of 
2013 introduced recently by Chairman Sanders, is an excellent 
starting point for serious bipartisan discussions.
    NCOA supports the bill, as it incorporates several of our 
priorities, including defining and establishing economic 
security as a goal, increasing attention on seniors with the 
greatest economic needs in the development of State and area 
plans, promoting senior center modernization, and emphasizing 
the delivery of evidence-based chronic disease management and 
falls prevention in area plans and supportive services 
programs.
    Finally and in conclusion, I'm compelled to mention that 
sequestration's arbitrary reductions to OAA programs seriously 
fail to recognize our current age wave or account for years of 
flat funding that did not keep pace with inflation. If 
continued, this penny-wise, pound-foolish policy will increase 
unmet needs in mandatory program spending and harm millions of 
seniors and their families.
    NCOA strongly urges that Congress fund OAA services at 
levels that protect and strengthen the program so it can meet 
the rapidly growing need among vulnerable seniors and their 
families.
    Thank you.
    [The prepared statement of Mr. Bedlin follows:]

                  Prepared Statement of Howard Bedlin

    On behalf of the National Council on Aging (NCOA), I greatly 
appreciate the opportunity to talk with you today about the role of the 
Older Americans Act (OAA) in reducing senior poverty and hunger. NCOA 
is a nonprofit service and advocacy organization headquartered in 
Washington, DC. NCOA's mission is to improve the lives of millions of 
older adults, especially those who are vulnerable and disadvantaged. We 
work with thousands of organizations across the country to help seniors 
find jobs and benefits, improve their health, live independently, and 
remain active in their communities.
    Enacted in 1965, the same year as Medicare and Medicaid, the Older 
Americans Act is a critical program that supports the health and 
economic security of older adults. Over nearly 50 years, the OAA has 
helped countless older adults remain healthy, out of hospitals and 
nursing homes, independent, active, and working longer. In doing so, 
the OAA has kept health care costs down. And the Act holds even greater 
potential to bend the future cost curve of the big three entitlement 
programs.
    OAA programs are delivered through a national network of 56 State 
agencies on aging, over 600 area agencies on aging, more than 200 
tribal organizations, and nearly 20,000 local providers--serving an 
estimated 10 million seniors. OAA services are targeted to older 
individuals with the greatest social or economic need, including those 
with low incomes, minorities, and those living in rural areas. Programs 
provide for basic human needs, such as food, jobs, transportation, home 
and community services, and health promotion/disease prevention.
    Through these services, the OAA plays a critical role in reducing 
poverty and hunger among older Americans. NCOA believes OAA 
reauthorization provides the ideal opportunity to further strengthen 
the Act for seniors in need today and tomorrow. We support S. 1028, the 
Older Americans Act Amendments of 2013, introduced recently by Chairman 
Sanders and cosponsored by 17 colleagues, and believe it is an 
excellent starting point for serious bipartisan discussions.
    As detailed in our statement below, the OAA plays a critical role 
in reducing poverty and hunger among older Americans, and we believe 
reauthorization provides a critical, timely opportunity to strengthen 
the ability to more effectively address these growing national 
problems.
    growing poverty and economic insecurity among america's seniors
    There are over 23 million Americans aged 60+ with incomes below 250 
percent of the Federal poverty level ($28,725 annually for a single 
person). These older adults struggle each day with rising housing and 
health care bills, inadequate nutrition, lack of access to 
transportation, diminished savings, and job loss. Out-of-pocket health 
costs for Medicare beneficiaries with incomes between 100 percent and 
200 percent of poverty are estimated at about 23 percent of income--
highest among all income groups. Millions of seniors teeter just above 
the poverty line--just one unexpected expense or other bad break away 
from it.
    People like Frank from St. Johnsbury, VT, who shares,

          ``I am one paycheck away from foreclosure and bankruptcy. 
        Struggling to make ends meet, I went back to college at age 59. 
        Graduated at age 61, I continued training in my career field 
        learning new, valuable skills but find I can't seem to get 
        ahead because I am strapped with debt.''

    The recession hit seniors like Frank hard. Millions of older 
Americans have seen their hard-earned retirement savings diminish. 
According to the Federal Reserve Board, median family wealth declined 
by 15.2 percent among those aged 55-64, and it fell by 13.9 percent 
among those aged 65-74. An estimated 12 percent of adults aged 55-64, 
and 21.5 percent of women in this age group, face retirement with 
negative net worth, contributing to a rise in bankruptcies that has 
grown at the fastest pace ever.
    Baby Boomers face increased financial uncertainty due to the 
economic downturn, particularly due to declining home values, 
diminished retirement accounts, and job loss caused by the recession. 
Estimates suggest half of all Baby Boomers will live on incomes less 
than $27,000 per year. Moreover, from 1992 to 2007, the average overall 
debt for 55- to 64-year-old households more than doubled to $70,370. 
Many mature workers face retirement without any pension, as 44 percent 
of workers in their fifties have neither a defined benefit nor a 
defined contribution pension.
    The Census Bureau has historically estimated poverty rates using an 
``official'' poverty measure created about 50 years ago. It has serious 
shortcomings, however, when it comes to accurately estimating poverty 
among older Americans primarily because it fails to account for their 
relatively higher out-of-pocket medical expenses. The Census Bureau 
recently released an alternative measure, known as the supplemental 
poverty measure (SPM), which is more accurate and comprehensive since 
it provides a more current income standard for meeting basic needs. It 
accounts for regional cost-of-living variations and the impact of both 
non-cash benefits received and non-discretionary expenditures, 
including medical out-of-pocket expenses--the major source of the 
significant differences between these measures for persons 65 and over.
    For similar reasons, NCOA believes the experimental consumer price 
index for the elderly (CPI-E) is a more accurate measure for 
determining future cost-of-living adjustments for senior benefits 
because it factors in the disproportionate amount seniors spend on 
health care. We, therefore, support Section 209 of S. 1028, which 
further revises and improves this index.
    Under the supplemental poverty measure, about one in seven (15 
percent) individuals ages 65 and older have incomes below the poverty 
level, compared to about 1 in 10 (9 percent) using the 1960s measure. 
Under the SPM, nearly one-half (48 percent) of older Americans (almost 
20 million seniors) have incomes below 200 percent of poverty, compared 
to about one-third (34 percent) under the ``official'' measure. More 
than half of the seniors in 10 States have incomes below 200 percent of 
poverty using the SPM, including three States represented by members of 
the HELP Committee--Georgia with 53.8 percent (third highest), 
Tennessee with 52.2 percent (fourth highest), and Rhode Island with 
51.8 percent (seventh highest). In addition, more than 52 percent of 
older women, and over 58 percent of Americans age 80 and older, have 
incomes below 200 percent of the SPM threshold. Conversely, only 19 
percent of seniors have income above 400 percent of the SPM measure, 
compared with 32 percent under the 1960s measure.
    As a result of our aging population and increasing economic 
insecurity, aging services organizations across the country are 
experiencing large increases in the demand for their core services, 
such as job training and assistance, help with applying for benefits, 
and subsidized meals. These organizations also find themselves 
stretched to try to assist clients with significant financial problems 
that are difficult to solve, such as threats of foreclosure or 
eviction, high credit card debts, and a pervasive and growing sense of 
economic insecurity.
    An Area Agency on Aging professional in Raleigh, NC stated:

          ``I am regularly dealing with [seniors who have] credit card 
        debt that has often snowballed into thousands of dollars, with 
        no way possible to get out from under the debt, and credit card 
        payments not leaving enough income to cover basics like food 
        and utilities.''

    What struggling older adults need--and what they cannot now get in 
most communities--is one place where they can go to receive: (1) a 
comprehensive assessment of their economic situation; (2) a summary of 
the range of options that best meet their needs, expressed in clear and 
plain language; and (3) assistance with connecting to and accessing the 
appropriate programs and services, including employment and training.
    Leveraging 21st century strategies and technology, the OAA can be 
strengthened and better positioned to meet the increasingly complex 
needs of vulnerable and disadvantaged boomers and seniors. We believe 
the OAA should contain: (1) a goal of economic security; (2) policy and 
program guidelines that ensure the improved coordination of public 
benefits and private resources; and (3) authorization of resources that 
ensure the training and robust implement of a holist approach by the 
aging network.
    In order to measure impact and best structure programming to meet 
the economic needs of older adults, the network first must adopt and 
define a measurable goal as a benchmark. The term ``economic security'' 
should be defined and stated as an objective of the OAA. Although 
economic security has long been an implied goal, the recent economic 
downturn and its negative impact on the housing, employment, and 
financial markets have made it an even more pressing matter for those 
concerned with the well-being of older adults.
    NCOA greatly appreciates and supports the various provisions in S. 
1028 that strengthen the OAA's ability to improve economic security 
among older Americans, and enable the aging services network to more 
effectively respond to seniors' specific needs and struggles. We are 
particularly supportive of the provisions to include economic security 
as a priority in the declaration of objectives, provide a new 
definition of economic security, and focus increased attention on 
seniors with the greatest economic needs in the development of State 
and area plans. This addition will better enable the aging service 
network to meet the needs of seniors today and tomorrow.

  Current Older Americans Act Programs that Reduce Senior Poverty and 
                          Economic Insecurity

    OAA Title V: The Senior Community Service Employment Program 
(SCSEP)--For many older Americans, the only solution to their financial 
insecurity is to work longer than planned or return to work from 
retirement. Yet, older adults face challenges to staying in the 
workforce. Not only has the nature of work changed, but the work 
opportunities are far fewer.
    According to the Bureau of Labor Statistics, the unemployment rate 
for workers aged 65+ was 7.6 percent in May 2013, the highest it has 
been for this age group since the Great Depression ended, and more than 
double the 3.3 percent unemployed at the start of the recession in 
December 2007. These challenges will only worsen, as the total number 
of economically vulnerable seniors will increase to 30 million by 2020.
    Once unemployed, older workers spend long periods of time searching 
for work. The average duration of looking for employment is 54.6 weeks, 
compared to about 9 months for younger workers. Once they have lost a 
job, older Americans are more likely than any other age group to remain 
out of work for 99 weeks or more. By January 2012, older workers 
displaced in 2009-11 were half as likely to have regained employment 
(23.5 percent) than the nationwide average (56 percent).
    Many seniors simply stop looking for work and choose to draw on 
their Social Security benefits instead. Discouraged mature workers are 
not looking for work because they believe that none is available, 
employers will find them too old, they lack the necessary schooling/
training, or they face other types of discrimination. In August 2010, 
discouraged mature workers represented nearly 20 percent of older 
persons not in the workforce.
    The Senior Community Service Employment Program (SCSEP) is the 
Nation's only workforce development program designed exclusively to 
maximize the productive contributions of a rapidly growing older 
population. Authorized under Title V of the OAA, workers aged 55+ with 
incomes at or below 125 percent of the poverty line are provided part-
time community service employment and training. SCSEP matches eligible 
older adults with eligible host agencies. They are paid minimum wage 
for an average of 20 hours per week while they build skills and self-
confidence to help them transition into unsubsidized employment. 
Participants train in a variety of occupations including customer 
service, office and computers, food service, and health care. For most, 
their SCSEP experience leads to permanent employment.
    Mainstream employment and training programs are not as effective in 
serving this population, particularly those with outdated skills who 
face discrimination in hiring. Significant numbers of SCSEP 
participants are struggling to make ends meet. Nearly 90 percent live 
in poverty, with incomes at or below $10,890. More than one-third are 
homeless or at risk of homelessness. About two-thirds are female, and 
many of these older women spent the majority of their adult lives as 
caregivers and did not acquire the skills that would make them 
competitive in today's workforce.
    SCSEP is administered by State agencies and 18 national sponsors, 
including NCOA. In fiscal year 2010, approximately 120,000 older 
workers were assisted by the program, dropping to 76,864 for the 
program year ending June 30, 2012. This year, work hours have been 
scaled back in most communities to 12 to 15 hours a week. The overall 
decrease in the number of participants is due to attrition and lack of 
resources to add new seniors to the program. Wait lists for the program 
are approaching 100 in several of the communities that NCOA serves, and 
that number exceeds 600 in New York City alone.
    While older workers develop skills and receive training and 
placement assistance in SCSEP, they also help local organizations that 
are struggling to meet growing needs with shrinking State, Federal, and 
charitable dollars--to maintain or increase their capacity to provide 
services to their communities, such as delivering meals to the 
homebound, assisting in libraries, and administering disaster relief. 
SCSEP participants provide millions of hours of community service, 
including serving other older adults, with a value to States and 
communities estimated at over $1billion.
    The need for SCSEP has never been greater. If Congress is serious 
about creating job opportunities for Americans in need of employment, 
we should be investing more in the SCSEP program.
    OAA Title III-B: Home and Community-Based Supportive Services--
Grants under this title fund a broad array of services that enable 
seniors to remain in their homes for as long as possible, including 
transportation, case management, adult day care, and in-home services 
such as personal care, chore, and homemaker assistance. Funding is also 
available to multi-purpose senior centers that coordinate and integrate 
services for the older adults such as congregate meals, community 
education, health screening, and exercise/health promotion programs. In 
fiscal year 2010, title III-B programs provided:

    <bullet> Personal Care, Homemaker, and Chore Services--more than 35 
million hours of assistance to frail seniors at risk of nursing home 
placement.
    <bullet> Adult Day Care--over 10 million hours of services and 
supports for care for dependent adults in a supervised group setting.
    <bullet> Transportation Services--over 27 million rides to doctor's 
offices, pharmacies, senior centers, meal sites, and other important 
activities.

    These OAA programs play a modest but critical role in helping to 
address a growing crisis faced by millions of families that Congress 
has largely ignored: the institutional bias in our long-term care 
system, and the ongoing necessity for individuals and families to 
impoverish themselves by spending down their life savings before 
receiving the services and supports they need. With the median annual 
rate for a private nursing home room now costing $84,000, it does not 
take long for the average American to quickly spend-down to poverty and 
onto Medicaid. Investments in home and community services could reduce 
rates of institutionalization and impoverishment among our rapidly 
growing senior population, particularly the rapidly growing group of 
those over age 85, who are at greatest risk of needing care. Medicaid 
long-term care services are also costing the Federal and State 
governments over $150 billion a year, which could be significantly 
reduced with increased investments in far less expensive OAA services.
    Title III-B also supports multipurpose senior centers, recognized 
by the OAA as community focal points, which have become one of the most 
widely used services among America's older adults. Today, nearly 11,000 
senior centers serve 1 million older adults every day. Senior centers 
serve as a gateway to the Nation's aging network--connecting seniors to 
vital community services that: (1) prolong independence and delay 
institutionalization; (2) empower them to better manage and delay the 
onset of chronic disease; (3) improve their physical, social, mental, 
and economic well-being; and (4) promote active community engagement.
    In seeking to appeal to and serve younger seniors, senior centers 
must make changes that connect them in new ways with their communities, 
such as upgrading their facilities and equipment. According to a 
February 2010 study by the Council of Senior Centers and Services in 
New York, many senior centers have aging physical plants and need to 
renovate to meet growing demands.
    OAA reauthorization provides an opportunity to create authority to 
modernize multipurpose senior centers to foster innovation, leadership 
and capacity building. Senior center leaders understand that those 
receiving such investments would be held to a certain level of 
accountability, standards or accreditation. We should help the 
``innovators'' continue to develop and test new models and provide 
technical assistance and training so that senior centers can better 
meet the needs of our growing aging population.
    NCOA greatly appreciates and supports Section 403 of S. 1028, which 
would support and promote modernized multipurpose senior center models, 
build an evidence base of innovative practices to meet diverse needs, 
enable renovations to meet growing demands, and conduct an evaluation 
of the programs. We also support various provisions to improve care 
coordination among a broad array of health and home and community-based 
services.
    OAA Title III-D: Evidence-Based Health Promotion and Disease 
Prevention--Title III-D initiates programs that help older adults 
prevent or manage multiple chronic disease and increase healthier 
lifestyles. According to the Medical Expenditure Panel Survey, over 53 
percent of Medicare patients are treated for five or more chronic 
conditions during the year, accounting for nearly 78 percent of total 
Medicare expenditures. The aging network is in a unique position to 
give older adults the support and education they need to care for 
themselves and stay healthier longer.
    According to the Kaiser Family Foundation, the out-of-pocket 
financial burden of health care is higher for seniors in poor health. 
Median out-of-pocket spending in 2006 was 20.6 percent for Medicare 
beneficiaries in poor health and 14.2 percent for those in excellent or 
very good health.
    OAA evidence-based health promotion programs are effective at 
helping participants adopt healthy behaviors, improve their health 
status, and reduce their use of hospital services and emergency room 
visits. These low-cost programs empower older adults to take control of 
their health by maintaining a healthy lifestyle through increased self-
efficacy and self-management.
    A study by RTI International found that title III-D programs 
stimulate innovation and allow community organizations to test out new 
approaches through partnerships that extend the reach of these 
services.
    Two program areas funded under title III-D which are particularly 
effective are the Chronic Disease Self-Management Program (CDSMP) and 
evidence-based falls prevention programs, which were developed with 
initial funding under OAA Title IV (see below). CDSMP is a low-cost, 
evidence-based disease prevention model that has been shown through 
randomized control experiments to be effective at helping people with 
chronic conditions to adopt healthy behaviors, improve their health 
status, and reduce their use of hospital stays and emergency room 
visits.
    Title III-D also provides modest funding for evidence-based falls 
prevention programs in some States, offering promising directions for 
simple, cost-effective interventions. One in three older Americans fall 
each year. Falls are the leading cause of both fatal and nonfatal 
injuries for those 65 and over. About $30 billion a year is spent 
treating older adults for the effects of falls and it is projected to 
double by 2020, costing Medicare $32 billion.
    Randomized controlled trials of several community-based programs 
have clearly demonstrated a reduction in falls: When compared with 
controls, the Tai Chi: Moving for Better Balance intervention reduced 
falls by 55 percent; the Stepping On program reduced falls by 30 
percent; and the Otago Exercise Program reduced falls by 35 percent. 
Research has shown that all of these evidence-based interventions have 
positive return on investment or anticipated savings that result from 
implementing falls prevention programs. For example, Tai Chi: Moving 
for Better Balance demonstrated that for every $1 invested in the 
program there is a $1.60 saved in direct medical costs.
    NCOA appreciates and supports provisions in S. 1028 to further 
promote evidence-based self-care management for those with chronic 
conditions, and evidence-based falls prevention programs in area plans 
and supportive services programs.
    OAA Title IV: Activities for Health, Independence, and Longevity 
(Program Innovations)--Title IV authorizes the Assistant Secretary for 
Aging to award funds for research, demonstration and evaluation 
projects. Many successful title III and other OAA programs trace their 
origin to title IV work. With systematic knowledge gathering and 
application, the OAA has the potential to improve program efficiency 
and effectiveness, better meet the needs of an increasingly diverse 
population, and help slow the growth of Medicare and Medicaid 
expenditures. As Congress and the Administration consider policy 
changes through reauthorization and appropriations, we urge that 
greater consideration be given to this significant potential under 
title IV.
    A title IV success story is a Bush administration initiative known 
as Choices for Independence under the leadership of former Assistant 
Secretary Josefina Carbonell. Choices for Independence awarded grants 
to develop and evaluate evidence-based disease management and 
prevention programs to reduce the risk of disease, disability, and 
injury among seniors. This is a model for working together on a 
bipartisan basis to take innovations that improve efficiency and 
outcomes to scale, and should be replicated in other areas.
    Title II, Section 202(20): OAA Provisions on Benefits Outreach, 
Enrollment and Counseling--Improving access to needed benefits is 
critical to providing economic support to low-income, vulnerable 
seniors. Benefits provide help paying for food, health care, home 
energy, and other daily needs, alleviating poverty and allowing seniors 
to live with dignity. Benefits are also a source of economic 
development in local communities by increasing consumption and spending 
in them.
    Large percentages of vulnerable seniors and younger people with 
disabilities are not participating in need-based programs for which 
they are eligible. Many are not aware of these programs, do not believe 
they qualify, do not understand the value of the assistance, or need 
help filling out the application forms. In particular, low-income 
Medicare beneficiaries continue to struggle to access the health care 
benefits for which they are eligible. For example, approximately 2.3 
million individuals eligible for the Medicare prescription drug low-
income Extra Help are not enrolled. Less than a third of those eligible 
for assistance paying Medicare Part B premiums through a Medicare 
Savings Program (MSP, for beneficiaries with incomes below 135 percent 
of poverty) receive this help.
    The 2006 OAA reauthorization added title II, section 202(20), which 
strengthened language on outreach and enrollment assistance to seniors 
in greatest need, and created the National Center for Benefits Outreach 
and Enrollment. Currently administered by NCOA, the Center has become 
the leading national resource working with community-based 
organizations that assist seniors in accessing the need-based benefits 
that help them remain healthy and independent. The Center makes widely 
available state-of-the-art web-based screening and enrollment tools; 
fosters the use of cost-effective benefits outreach and enrollment 
strategies by local Benefits Enrollment Centers (BECs) and service 
providers; provides training and technical assistance; and has 
developed an online information clearinghouse of cost-effective, 
promising practices related to benefits outreach and enrollment.
    In 2008, Congress provided $25 million in Medicare funding for the 
National Center, Area Agencies, State Health Insurance Assistance 
Programs, and Aging and Disability Resource Center to perform various 
outreach and enrollment activities for low-income Medicare 
beneficiaries. This enabled grantees to:

    <bullet> Assist about 540,000 individuals in need;
    <bullet> Generate $1.8 billion in local economic activity;
    <bullet> Reduce by almost 10 percent the number of low-income 
beneficiaries without access to needed benefits for which they were 
eligible;
    <bullet> Target rural communities to improve access to Medicare 
prescription drug coverage and extra help;
    <bullet> Assist thousands of beneficiaries to save money and make 
the competitive market work better through improved information for 
consumers making complex choices, fostering objective yet personalized 
plan selection and decisionmaking; and
    <bullet> Contribute toward increasing new MSP enrollment from 
192,963 in 2009 to 388,733 in 2011.

    OAA provisions to reduce elder financial abuse and exploitation--
One of the key elements to ensuring economic security for older adults 
is preventing elder financial abuse and exploitation. Financial abuse 
is the third most commonly substantiated type of elder abuse, following 
neglect and emotional/psychological abuse. While underreported, the 
annual economic loss by victims of elder financial abuse is estimated 
to be at least $2.9 billion annually, according to a June 2011 study by 
the MetLife Mature Market Institute.
    Examples of financial exploitation include cashing an elderly 
person's checks without authorization; forging an older person's 
signature; or misusing or stealing an older person's money or 
possessions. Another example is deceiving an older person into signing 
any contract, will, or other document.
    NCOA appreciates and supports language in Section 708 of S. 1028 to 
further strengthen current OAA provisions to reduce elder financial 
abuse and exploitation. We strongly urge Congress to provide funding to 
support these and other similar efforts to combat various forms of 
elder abuse.

                Senior Hunger and OAA Nutrition Programs

    Hunger is a serious and growing problem among older Americans. The 
prevalence of food insecurity is at a 17-year high and occurred in more 
than 8.4 percent of households with older adults in 2011 (2.5 million 
households). Eight of the top ten States with the highest rates of 
senior food insecurity are in the South, including North Carolina, 
Georgia, and South Carolina. The number of food insecure seniors is 
projected to increase by 50 percent in 2025.
    Food insecurity leads to significant health problems that can 
jeopardize seniors' ability to live independently. Compared to their 
peers, food insecure seniors are:

    <bullet> Almost twice as likely to be diabetic (19 percent vs. 2 
percent).
    <bullet> Far less likely to be in excellent or very good health (17 
percent vs. 44 percent).
    <bullet> Over five times more likely to suffer from depression (16 
percent vs. 3 percent).
    <bullet> Over twice as likely to have at least one limitation with 
an activity of daily living (52 percent vs. 21 percent).

    The Congregate and Home-Delivered Nutrition Services Programs 
successfully reduce hunger and food insecurity, promote the health and 
well-being of older individuals, and delay adverse health conditions. 
They have been one of the core elements of our national strategy for 
reducing food insecurity among the elderly for over 40 years. These 
services are targeted to those in greatest social and economic need. A 
2009 national survey found that 44 percent of home-delivered meals 
recipients were in poverty and 52 percent were at high nutritional 
risk, while 34 percent of congregate meals recipients were in poverty 
and 19 percent were at high nutritional risk. The survey also found 
that 63 percent of home-delivered meal recipients and 58 percent of 
congregate meals recipients relied on these services for one-half or 
more of their total food for the day.
    Investments in these nutrition programs help to bend the Medicare 
and Medicaid cost curves by keeping frail seniors healthier and out of 
expensive nursing homes. Over 35 percent of home-delivered meal 
recipients have severe disabilities (with three or more impairments of 
activities of daily living). This measure of dependence is associated 
with nursing home admission, and demonstrates the extreme frailty of a 
significant number of persons served by the home-delivered meals 
program. Fully 93 percent of home-delivered meal recipients and 58 
percent of congregate meals recipients report that the meals enabled 
them to continue living in their own homes.

 The Importance of Reauthorizing and Investing in the Older Americans 
                                  Act

    The OAA continues to work well for older adults across the country 
and major structural changes are not needed. The reauthorization 
process, which should occur every 5 years, provides an important 
opportunity to modernize and improve services by supporting 
efficiencies and innovations, reassessing the Act's successes and 
limitations, and addressing its ability to effectively serve older 
Americans in need. It is noteworthy to recall that, during the last 
White House Conference on Aging in December 2005, OAA reauthorization 
was the No. 1 priority out of the 73 considered by the bipartisan 
delegation of community leaders in aging. NCOA urges members of the 
HELP Committee to continue the tradition of bipartisan and timely 
reauthorization of this important statute and come together to pass a 
bill before the August recess.
    The OAA is a living document that should change to address emerging 
needs and embrace new, innovative best practices. Particularly in times 
of fiscal restraint, improvements can be made in the efficiency and 
effectiveness of the OAA in its delivery of services and how it 
coordinates with other Federal programs.
    The reauthorization of the OAA will provide an opportunity to 
modernize critical systems and supports designed to assist older adults 
experiencing economic distress. With an increasingly diverse number of 
Americans likely to find themselves in economic distress in old-age, 
now is the time to shore up strategies through the OAA to ensure all 
older adults have the opportunity to get on a pathway to economic 
security. Reauthorization of the OAA as increasing waves of Baby 
Boomers age is crucial to ensure that successes of the Act can be 
better leveraged, and innovation continues to be fostered to meet the 
needs of today's and future seniors.
    S. 1028, the Older Americans Act Amendments of 2013, introduced 
recently by Chairman Sanders and cosponsored by 17 colleagues, is an 
excellent starting point for serious bipartisan discussions. NCOA 
supports the bill, as it incorporates several NCOA priorities, 
including explicitly establishing economic security as a goal of the 
Act, promoting senior center modernization, emphasizing the delivery of 
evidence-based chronic disease management and falls prevention, and 
strengthening elder justice provisions. Together, these improvements 
can empower seniors and improve their health and economic security, 
bend downward the long-term entitlements cost curve, and promote 
greater program efficiency and coordination.
    At the same time, we cannot ignore the dire consequences facing 
vulnerable seniors if Congress continues to cut OAA programs. NCOA 
strongly urges that needed OAA funding be provided to keep older 
Americans healthy, independent, and productive, thereby reducing other 
Federal and State spending. OAA programs represent less than 0.2 
percent of Federal discretionary spending, but offer a substantial 
return on investment by leveraging State, local, and private dollars.
    Despite the program's successes and efficiencies, funding for the 
OAA has not kept pace with inflation or population growth for decades, 
and current levels are inadequate to meet this increased need. In 2009, 
in order for OAA funding to simply catch up with the growth in the 
senior population and the costs of services over the past decade, it 
would have had to be increased by at least 12 percent a year for 
several years. Since then, OAA appropriations have continued to lag 
behind the rising costs of fuel, commodities, and wages, while the 
Nation's senior population, as well as demand for OAA services, has 
continued to grow. Additionally, many States remain hampered by the 
lingering effects of the economic downturn, and Federal discretionary 
spending has faced a series of devastating, unprecedented cuts in the 
name of deficit reduction.
    Sequestration's arbitrary reductions to OAA programs fails to 
recognize the Nation's changing demographics, or the needs of seniors 
and their families. Since local, State, and Federal resources are 
likely to be strained into the foreseeable future, adequate Federal 
support for the OAA through the appropriations process is all the more 
critical. NCOA strongly urges that Congress fund OAA services at levels 
that protect and strengthen the program, so it may meet the rapidly 
increasing need among vulnerable older Americans.
    With the retirement of over 78 million baby boomers ahead of us and 
the current, but long-lasting, implications of present economic 
challenges, it is time for renewed energy and innovation to make 
important, strategic improvements that will result in systems change 
and ensure that older adults are able to access the coordinated public 
and private resources they need to be financially secure and remain 
independent. NCOA believes that the Older Americans Act is a critical 
vehicle in this process.

    Senator Sanders. Thank you, Mr. Bedlin.
    Our final witness is Paul Downey. Mr. Downey has served as 
president and CEO of Senior Community Centers in San Diego 
since 1995. He is also president of the National Association of 
Nutrition and Aging Services Programs and a steering committee 
member for the California Elder Economic Standard Initiative.
    Mr. Downey, thanks for being with us.

STATEMENT OF PAUL DOWNEY, PRESIDENT AND CHIEF EXECUTIVE OFFICER 
  OF SENIOR COMMUNITY CENTERS, AND PRESIDENT OF THE NATIONAL 
   ASSOCIATION OF NUTRITION AND AGING SERVICES PROGRAMS, SAN 
                           DIEGO, CA

    Mr. Downey. Thank you, Senator. Good morning.
    Chairman Sanders, Ranking Member Burr, and members of the 
subcommittee, this hearing is important to our hope that 
Congress will reauthorize the OAA this session. Millions of 
seniors are able to live in their community and at home by 
virtue of the services OAA provides every day.
    Senior Community Centers does its part by serving breakfast 
and lunch, 2,100 meals daily, 7 days per week, 365 days per 
year to seniors living on an average of $830 a month. Put 
another way, 95 percent of the seniors we serve live at or 
below the Federal poverty level or at about half of the elder 
index in San Diego County, which measures income adequacy for 
basics, including food and housing.
    The rent for single room occupancy hotels, SROs, where most 
of the seniors we serve live, averages $675 a month, leaving 
about $150 for everything else, including food. Virtually every 
senior that we serve is on the cusp of homelessness. That's why 
Senior Community Centers also provides a full array of 
services, including case management, chronic disease 
management, healthcare education, civic engagement, 350 units 
of permanent supportive housing, and 30 units of transitional 
housing for homeless seniors. Some of these types of services 
are also funded through the Older Americans Act.
    But our core service and the one that is most critical 
remains nutrition. Nutritious food keeps seniors healthy and 
independent. They make fewer visits to the emergency room, 
spend less time in the hospital, and if we do our job right, we 
can eliminate the need for long-term care.
    Our average cost to Senior Community Centers to provide 
nutrition services for a year is about $2,000. A single day in 
a nursing home in California is $330 a day. A single day in the 
hospital is about $2,600 a day. Simply put, an investment in 
the Older Americans Act is a win-win. Seniors are healthy, and 
government at all levels saves money.
    Through our meal program, as noted by the chairman, we're 
able to get eyes on the client on a daily basis. One of my 
home-delivered meals drivers noted that a 63-year-old male 
client was frequently calling 911. He notified Dr. Pettigrew--
one of our physicians. She discovered that this client is what 
is known as a hot-spotter, a frequent user of EMS services. In 
2012, he had called paramedics 59 times at a cost of almost 
$104,000 to the city of San Diego.
    Dr. Pettigrew's intervention resulted in getting the client 
a primary care physician and a referral to a psychiatrist, 
because his primary problem was depression exacerbated by 
isolation. He now regularly gets meals and participates in 
activities at our flagship facility, the Gary and Mary West 
Senior Wellness Center, and the client has called 911 zero 
times in 2013. None of this would have happened without a home-
delivered meal.
    This illustrates why we see the OAA as not only a social 
and human service program, but also a preventative health 
program. It has strong ROI. Dollars invested in the OAA do two 
distinct things. They leverage other sources of funding, and 
they save untold millions in Medicare and Medicaid costs. These 
savings must start to be documented with better data 
collection.
    Also, don't overlook the fact that the OAA is a catalyst 
for thousands of jobs in non-profit agencies and the for-profit 
venders who supply us.
    Senator Sanders, NANASP supports S. 1028, and we've enjoyed 
working with your fine staff to help develop the bill. S. 1028 
keeps senior nutrition strong by maintaining separate funding 
for the congregate and home-delivered meals programs and 
keeping the system of voluntary contributions which ensures 
that we don't drive away those older adults who need us the 
most.
    We also support the bill which works to better connect 
nutrition and transportation programs. Further, we will 
continue working to ensure that we fully protect nutrition 
dollars, especially from diversion into programs that are not 
related to nutrition.
    Overall, your bill represents a critical opportunity to 
stand up for seniors and let them know that Congress has their 
back. There are acres of common ground that we can find to move 
this bill forward, and we should.
    Let me raise a related issue, sequestration, which is 
devastating senior nutrition across the country. In California, 
we are losing 750,000 meals. Senior Community Centers--our 
share of sequester is a cut of over $200,000, which puts 70,000 
meals at risk. Please end it as soon as possible. Exempt those 
programs which clearly serve the most vulnerable of our 
society, such as the OAA nutrition programs. We have gone from 
being providers of meals to arbiters of who goes hungry, and 
that is wrong.
    Thank you.
    [The prepared statement of Mr. Downey follows:]

                   Prepared Statement of Paul Downey

    Chairman Sanders, Ranking Member Burr, members of the subcommittee, 
thank you for holding this hearing and inviting me to testify. I wear 
two hats today: president of NANASP--the National Association of 
Nutrition and Aging Services Programs--and president of Senior 
Community Centers in San Diego.
    This hearing is important to our hope that Congress will 
reauthorize the OAA this session. Millions of seniors are able to live 
in the community or at home by virtue of the services the OAA provides 
every day.
    Senior Community Centers does its part by serving breakfast and 
lunch--2,100 meals daily--7 days per week, 365 days per year, to 
seniors living on an average of $830 per month. Put another way, 95 
percent of the seniors we serve live at or below the Federal poverty 
level or at half the level of the Elder Index in San Diego County which 
measures income adequacy for basics, including food and housing.
    The rent for Single Room Occupancy hotels (SROs), where most 
seniors we serve live, averages $675 per month, leaving about $150 for 
all other expenses, including food. Virtually every senior we serve is 
on the cusp of homelessness. That's why Senior Community Centers also 
provides a full array of services including case management, chronic 
disease management, healthcare education, civic engagement, 350 units 
of permanent supportive housing and 30 units of transitional housing 
for homeless seniors. Some of these types of services are also funded 
through the OAA.
    But our core service, the one most critical, remains nutrition. 
Nutritious food keeps seniors healthy and independent. They make fewer 
visits to the emergency room, spend less time in the hospital and, if 
we do our job right, may not need costly long-term care. Consider that 
our average annual cost to provide nutrition services to a senior is 
just over $2,000 a year. A single day in a nursing home in California 
averages $330. A day in the hospital in California averages $2,590. 
Simply put, an investment in OAA is a win-win: seniors are healthy and 
government at all levels saves money.
    Through our meal program, we're able to get eyes on the client on a 
daily basis. One of my home-delivered meals drivers noted that a 63-
year-old male client was frequently calling 911. He notified Dr. 
Pettigrew, one of our physicians. She discovered that this client was 
what is known as a ``hot-spotter''--a frequent user of EMS services. In 
fact, in 2012, he had called paramedics 59 times at a cost of almost 
$104,000 to the city of San Diego.
    Dr. Pettigrew's intervention resulted in getting the client a 
primary care physician and a referral to a psychiatrist--because his 
primary problem was depression exacerbated by isolation. He now 
regularly gets meals and participates in activities at our flagship 
facility, the Gary and Mary West Senior Wellness Center, and the client 
has called 911 zero times so far in 2013. None of this would have 
happened without a home-delivered meal.
    This illustrates why we see the OAA as not only a social and human 
service program but also a preventive health program. It has strong 
ROI. Dollars invested in the OAA do two distinct things: they leverage 
other sources of funding and they save untold millions in Medicare and 
Medicaid costs by maintaining older persons in their homes and in their 
communities. These savings must start to be documented with better data 
collection.
    Also, don't overlook the fact that the OAA is a catalyst for 
thousands of jobs in non-profit agencies and for-profit vendors who 
supply the aging network.
    Senator Sanders, NANASP supports your bill and we have enjoyed 
working with your fine staff. S. 1028 keeps senior nutrition strong by 
maintaining separate funding for the congregate and home-delivered 
meals program and by keeping the system of voluntary contributions 
which ensures that we don't drive away those older adults who need us 
the most. We also support your bill working to better connect nutrition 
and transportation programs. Further, we will continue working to 
ensure we fully protect nutrition dollars especially from diversion 
into programs not related to nutrition.
    Overall, your bill represents a critical opportunity to stand up 
for seniors and let them know Congress has their back. There are many 
areas of common ground that we can find to move the OAA forward and we 
should. However, without your leadership and your bill we would be 
nowhere.
    Let me raise a related issue: sequestration, which is devastating 
senior nutrition across the country. In California, we are losing 
750,000 meals. At Senior Community Centers, our share of sequester is 
over $200,000 which puts 70,000 meals at risk. Please end it as soon as 
possible. Exempt those programs which clearly serve the most vulnerable 
of our society, such as the OAA nutrition programs. We have gone from 
being providers of meals to arbiters of who goes hungry and that is 
wrong.
    Thank you.

    Senator Sanders. Mr. Downey, thank you very much.
    I think what we have heard from the excellent testimony 
from all of our panelists and from what we've heard from 
members of the panel here are two basic issues, and I think 
Senator Warren touched on them. No. 1, the moral issue. Should 
we turn our backs on the people who raised us, the people who 
fought in wars, and allow them to suffer? That's the first 
issue.
    And the second issue we have all heard is the economic 
issue, the insanity of wasting huge amounts of money by not 
providing minimal services to people so they don't end up in 
the hospital, they don't end up in the emergency room, they 
don't end up calling 911 50 times unnecessarily, et cetera, et 
cetera, et cetera.
    So I want to start with Ms. Hollander. You raised an 
interesting point that the funding--forget sequestration for a 
moment, as humiliating and embarrassing and disastrous as that 
is. Go back to where we were years ago. How has funding for 
this extraordinarily cost-effective program not kept up with 
need for many years before sequestration?
    Ms. Hollander and then others can comment on that, please.
    Ms. Hollander. I anticipated that this question might 
arise, that if I did indicate that the funding levels did not 
keep pace, someone was going to ask me, ``Well, what would we 
need to keep pace?'' So we did the math, and it is pretty 
extraordinary that $514 million would be needed just to get to 
1992 levels.
    Senator Sanders. Say that again. To get to where we were in 
1992, we would need an additional $514 million.
    Ms. Hollander. Yes, $514 million.
    Senator Sanders. So the real funding for the Older 
Americans Act has significantly declined.
    Ms. Hollander. Correct.
    Senator Sanders. Do other people want to comment?
    Mr. Bedlin. Back in 2009, 4 years ago, a number of aging 
service organizations calculated that just to simply catch up 
with the growth in the senior population and the cost of 
services, the Older Americans Act would have to be increased by 
12 percent per year for several years. That was, again, 4 years 
ago.
    Since then, as has been indicated, the program has not kept 
pace with inflation or the increasing number of individuals in 
need, bearing in mind that those at greatest risk are those 
over age 85, and that's where we've seen the most rapid growth 
demographically. And, clearly, the program has not kept up, and 
that's why we see growing unmet needs and people not getting 
services that would save, frankly, State and Federal Government 
significant dollars.
    Senator Sanders. Mr. Downey.
    Mr. Downey. We see that for a program that primarily serves 
people in poverty, it puts an even greater strain, because for 
a program like Senior Community Centers with 95 percent below 
FPL, those seniors are not able to make much of a donation, 
which is what the program is predicated on. So it puts a strain 
on the local resources for us to be able to continue to, 
frankly, have to fundraise from the rest of the community to 
make up the difference that the seniors would normally be 
providing.
    The key is that when you look at some of the numbers on 
healthcare or access to healthcare, lower income and those in 
poverty tend to use healthcare at a higher rate because they're 
primarily using the emergency room as their primary care 
physician. So programs that focus on those in poverty--there's 
actually a more direct correlation between investing in those 
programs and reducing healthcare costs.
    Senator Sanders. What we are in agreement about is in terms 
of real dollars, the Older Americans Act has been significantly 
underfunded for many years, and then you have sequestration 
adding insult to injury. I want somebody to make the point or 
to discuss again the Older Americans Act as an economic 
investment in saving the U.S. Government money in terms of 
Medicare, Medicaid, local police departments, ambulance 
services, et cetera.
    Who wants to pick up on that point?
    Ms. Hollander, why don't you jump in there?
    Ms. Hollander. May I clarify one quick thing for the 
record? I want to make sure that the $514 million figure that I 
gave you takes into consideration both inflation and population 
growth. I just want to make sure that that was clear.
    Senator Sanders. For the record, we got it.
    Ms. Hollander. Thank you.
    Nancy. Go ahead.
    Ms. Altman. To respond to what you were saying, Medicare is 
an extremely efficient program. It spends less per capita, even 
though it covers the most expensive part of the population, 
than private insurance. And yet it would be even more effective 
if we prevented people from needing acute care.
    As we've said, nutrition is very important. Preventing 
falls is very important--all of those kinds of things. As we 
say, a return of 1 to 50 is not something you can find even 
with the best financial advisors.
    Senator Sanders. Thank you very much.
    Senator Burr.
    Senator Burr. Mr. Downey, how effectively do you believe 
that title III services, particularly those for nutrition, are 
braided with other sources of funding for our most vulnerable 
populations, be it Federal, State, or local dollars? And do we 
create an impediment in any way from the Federal level for that 
happening in a more natural way?
    Mr. Downey. Senator Burr, I would say that when you look at 
how the formula operates from the Federal level down to the 
State down to the local, it is a maze to try to understand how 
funding flows on a State-by-State basis. And I'm speaking as 
president of NANASP when I look across the country.
    So when it gets to the local level, we don't see much 
funding except for the Federal dollars, and the California 
Department of Aging, where the State, puts in its matching 
shares. So the only dollars that we are receiving are basically 
Federal dollars and a small State match. The local Area Agency 
on Aging puts in no local dollars. We're dependent really 
strictly on philanthropy to try to make up the rest of the gap.
    In terms of impediments, I would say if there was a way to 
reduce some of the byzantine nature of the formulas, I think I 
would be all for seeing that so we could understand. The 
sequestration is a good example. When you look at the impact, 
some States are seeing zero impact for nutrition.
    In the State of California, the best they can tell us right 
now is our cut is somewhere between 9 percent and 20 percent, 
and they can't tell us anything beyond that at this point. And 
that's largely due, specifically, to the nature of your 
question, which is how the formulas are working.
    Senator Burr. Mr. Bedlin, oftentimes, the meals seniors 
receive from the Act--the funding covers one meal a day. There 
are other opportunities from Federal funding to support meals 
for seniors, however, SNAP, Senior Farmers Market Nutrition 
Program, and the Commodity Supplemental Food Program. How well-
aligned are the Federal eligibility requirements for the 
various other Federal assistance programs that we provide from 
a Federal level?
    Mr. Bedlin. I can tell you that they're all targeted to a 
very vulnerable, lower income population in need. My colleagues 
may be able to talk a little bit more about the specific 
eligibility criteria. I think they're generally similar. I 
think they're relatively well aligned. I don't have the on-the-
ground experience dealing with them.
    I will tell you that senior participation in those 
programs, as with other low-income benefits programs, is 
problematic. In the SNAP program, for example, senior 
enrollment is the lowest of any age group. Again, only about a 
third of the seniors----
    Senator Burr. But all of you would agree that these three 
Federal programs apply to the same population. You could 
comingle these three programs into your operation.
    Mr. Downey. Theoretically, but the challenge----
    Senator Burr. Tell me the challenge.
    Mr. Downey [continuing]. The challenge--for instance, you 
mentioned SNAP, specifically, Senator. In California, seniors 
have to choose between SSI or SNAP. So if you are living on 
$830, and you're trying to make decisions about whether to take 
the money, whether to take SNAP, or whether to take an Older 
Americans Act meal, you choose the meal and take the money to 
help pay for some of your other needs. So it doesn't all 
seamlessly flow together.
    Senator Burr. How about the other two programs? Are they 
accessible?
    Mr. Downey. They're accessible. I would say that across the 
board, there's not enough funding--as was alluded to by my 
colleagues, not enough funding. As a program, I have my foot on 
the brake in terms of reaching out. There are more seniors in 
San Diego County that need the services we provide for all of 
the benefits that we've discussed, but I have my foot on the 
brake because there's not enough funding from any source, 
including philanthropy, to be able to meet the needs.
    That's the fundamental challenge, and I would suspect my 
colleagues would agree. And I know, certainly, the NANASP 
members would agree that it's hard, with the demographic 
onslaught that we're going to be seeing over the next 15 or 20 
years, to operate when we've got our foot firmly on the brake.
    Senator Burr. Ms. Hollander, the Older Americans Act 
defines older Americans as age 60 and over. A recent GAO 
analysis found that the prevalence of seniors having at least 
one ADL limitation increases with age. Currently, the 
congregate nutrition and meals program is not tied to seniors 
who have one or more ADL.
    In your opinion, is it important that the congregate meal 
services are based on an individual's ability to perform basic 
activities versus providing services on a first-come, first-
serve basis to seniors 60 and over?
    Ms. Hollander. I think the spirit of the Older Americans 
Act with regard to all of its programs are those that are in 
greatest social and economic need. Generally, they are those 
who are low-
income, could be having challenges with being able to stay in 
their own home.
    Most of the percentage of people that get congregate 
meals--based on statistics that I have in front of me from the 
Older Americans Act, a number of them do suffer from multiple 
challenges, ADLs. I can give you the statistics. I can submit 
them for the record if you want.
    Senator Burr. Would you submit it for the record?
    Ms. Hollander. OK.
    Senator Burr. That would be great.
    Thank you, Mr. Chairman.
    Senator Sanders. Let me get to Senator Baldwin.
    Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman.
    Ms. Altman, you describe a pretty stark picture of the 
economic vulnerability of our seniors in your testimony, and I 
appreciate your testimony. You highlight how Social Security, 
Medicare, and the Older Americans Act programs work together to 
improve the security of older Americans.
    I agree that it's important to think about how these 
programs work together. You could imagine a three-legged stool. 
And if we don't adequately fund the Older Americans Act, we can 
then envision it becoming a two-legged stool. I'd like to have 
you talk a little bit about how our level of funding for the 
Older Americans Act affects the Social Security and Medicare 
programs and, potentially, their long-term solvency.
    Ms. Altman. These three programs really are synergistic, 
and I think past policymakers understood this. You need a basic 
level--and I guess the other point, which also goes to the last 
question, is that all three of these programs are extremely 
efficient and, again, they work together.
    So Social Security--the understanding is that once you lose 
wages, you need wage insurance, which is Social Security. It 
replaces just a very minimal level. For a worker who retires at 
age 65 and was earning about $40,000, it replaces just under 40 
percent of final pay. So that's not very much to maintain a 
living standard, but it's a minimal amount.
    On top of that, it's not enough to have health insurance. 
So the Medicare is there, very efficiently. But those people 
need services to complement both of these programs. If those 
services weren't there, as we've talked about, there would be 
more hospital stays. There would be more falls. There would be 
more malnutrition and so forth.
    So the Older Americans Act is really there as a support to 
these other two programs. The three-legged stool, I think, is a 
perfect analogy of how it works.
    Senator Baldwin. We've had some quantification of the 
leveraging impact of the Older Americans Act. Has there been 
any scholarship along those lines in terms of full funding, 
saving Medicare or Social Security or extending their solvency 
in a specific way that you're aware of?
    Ms. Altman. Well, certainly, the jobs part that Mr. Bedlin 
was talking about is a very important program, because some 
seniors are able to and want to continue to work, and then they 
would be contributing. That would certainly extend the life of 
the program, not that they'd have to work, but they would want 
to work. So that certainly does.
    And we talk about the real issue in the Federal budget 
being rising healthcare costs overall, not really Medicare, 
because Medicare is a symptom of these other costs. If people 
got the preventive care through nutrition and these other 
services and the abuse issues and so forth, there would be 
fewer hospital stays. So, definitely, more funding for the 
Older Americans Act will improve, economically, Social Security 
and the finance of Social Security and Medicare and, of course, 
improve the value of the lives of these people as well.
    Senator Baldwin. Mr. Bedlin.
    Mr. Bedlin. Yes. Briefly, with regard to Medicaid, for 
example, the home and community-based services available 
through the Act can delay Medicaid spend-down, which, as I 
mentioned, can happen quite rapidly, and Medicaid is the 
primary payer for long-term care. On the Medicare side, the 
evidence-based health promotion, disease prevention programs 
have the potential, and some of the individual programs under 
title III-D have been found to reduce hospitalization rates, 
reduce emergency room visits.
    Part of the problem, though, is the Congressional Budget 
Office will not look at the discretionary side for savings on 
the mandatory side. There have been some private estimates. The 
Lewin Group, for example, has looked at a number of these 
programs and shown some significant savings. But the CBO rules 
make it difficult for us to come to Congress and have scorable 
savings.
    Mr. Downey. Senator, I think your question also highlights 
a very important need, which is better data collection 
throughout the network. It's something we're committed to at my 
agency. We use a simple scan card so if a senior gets a meal, 
sees a social worker, sees a nurse, goes to a Tai Chi class, we 
can track it so that we can demonstrate the impact of what 
we're doing.
    Unfortunately, throughout the aging network, and 
particularly in Older Americans Act programs, we're not as 
strong on the data. All of us here and, I suspect, many of the 
people behind me could tell anecdotal stories all day. But what 
we need to do is move toward better documentation and showing 
the data so that we can absolutely prove what we all believe to 
be absolutely the facts.
    Senator Sanders. Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    I'd like to ask about another aspect of the Older Americans 
Act. We started talking about Social Security, how Social 
Security provides a safety net to keep people out of poverty, 
but it's a very modest safety net. And I think we'd all agree 
that people need pension help to the extent they've got it. If 
they put any money away during their working years, they need 
that money in their retirement years.
    But managing a pension can be complex. And part of what the 
Older Americans Act did was establish a pension counseling and 
information program, six regional projects covering 29 States, 
so that there's assistance for seniors who are trying to get 
access to their pensions.
    Now, one project, in particular, that I've learned about is 
one out of Massachusetts. It's the New England Pension 
Assistance Project at the University of Massachusetts Boston, 
and it uses OAA funds in order to help people recover lost 
pensions. Lost pensions are pensions that people moved during 
their working years. The company has since changed names or 
merged with another company so that people can't find pensions 
that they may now be eligible for.
    It's my understanding from reading your testimony, Ms. 
Altman, that this project, since 1993, has produced about $175 
million for about 50,000 of our seniors, and that this is 
another one that has great leverage. For every dollar that 
we've spent in costs, seniors have recovered about $8 in 
pension money. But it's only available in 29 States because 
there's not enough funding for it now.
    So the question I have is on this one. If we ended the 
sequester, if we expanded the program, how much money could we 
potentially recover for our seniors, Ms. Altman?
    Ms. Altman. Thank you very much for that question, because 
this is exactly right. This is another part, another 
illustration, of how the Older Americans Act works. There is 
Federal money that's leveraged in many ways.
    First of all, there has to be private--they have to have 
some foundation coverage as well, so these six regional offices 
or counseling projects cover only 29 States, three-fifths of 
the country--bringing in private money, and then getting $8 for 
every Federal dollar spent, as you said. Some of the States 
that are not covered are States with high numbers of retirees. 
Florida is not covered. A lot of the Northwest, Washington and 
Oregon, are not covered. Maryland and Virginia are not covered.
    Again, I'm used to working with Social Security with the 
large amounts of money. The money is very modest. It's $1.6 
million to run all of these centers with all of these lawyers 
handling--they've gotten returns for 50,000 beneficiaries who 
have--it's a kind of program integrity. They've earned these 
benefits, and they need legal assistance in actually getting 
them.
    I think that if the program were just increased modestly so 
you could cover all 50 States, we're likely to double the 
return. So $275 million has been collected for beneficiaries--
as I said, a kind of program integrity for the tax expenditures 
that are used over the course of this program. And I think you 
could easily double that.
    Senator Warren. Well, thank you. This is such a modest 
amount of money, and I just want to emphasize that this is not 
a subsidy. This is money people earned, and it's just trying to 
help them get the money they earned. So thank you, Ms. Altman.
    I want to ask one other question, if I can, about the Meals 
on Wheels program, Ms. Hollander. It's my understanding that--
we've been talking about it--you're trying to recover to try to 
get us to the point where we were in the 1990s, at least, on 
coverage for Meals on Wheels. But today, fewer than 1 in 10 
people who are eligible for Meals on Wheels are actually 
getting the Meals on Wheels program. Is this right?
    Ms. Hollander. I don't know the answer to that.
    Senator Warren. Well, this is what I have read, that the 
eligibility--we just aren't able to reach--you're nodding, Mr. 
Downey. We are not able to reach the people who are currently 
eligible for Meals on Wheels. And the sequester has made a bad 
problem worse, but it was not that we were in a good place, 
reaching all of the seniors who needed Meals on Wheels. Is that 
a fair----
    Mr. Downey. That is absolutely correct, Senator. Before 
sequester, as I noted, my foot is on the brake in terms of 
outreach. We don't do outreach. We have more seniors showing up 
on our doorstep needing meals than we have money to feed them 
with. So the sequester just put us--we had to slam the brake 
even harder in terms of what we're doing.
    So the challenge is we know that they're out there. And I 
don't know if it's 1 in 10, but, certainly, a significant 
number of folks that should be receiving the services and 
coming to the congregate meal sites and receiving the ancillary 
services are not able to do so because programs like mine and 
the Meals on Wheels programs simply don't have the ability to 
meet the demand.
    Senator Warren. So if the chairman will indulge me for just 
1 minute on this, could I ask the question in the other 
direction? If instead of spending $800 million on the 
congregate meals programs, we doubled that to $1.6 million, can 
you just speak very briefly to the question of both how many 
people would be helped and how much money we would save doing 
that? Whoever would like to jump in first----
    Mr. Downey. Sure. It's going to be significant. I mean, we 
all are painfully aware of the demographics. So we're going to 
double the number of seniors in this country between today and 
2030 who would be eligible for Older Americans Act programs. So 
your question is very appropriate.
    If we doubled it, we would simply keep at the level that 
we're at with that portion that we're currently serving. And in 
terms of the dollars, it's going to be multiple-fold. As I 
noted in my example with just the one home-delivered meal 
client, that was $104,000 saved for the city. We don't know 
what the Medicare and Medicaid costs were.
    The fact is that as a program, we only need to be 
marginally successful to save a lot of money on the other side. 
And I would argue that we are highly successful, but that's the 
point. A marginal success is going to break even or do better.
    Senator Warren. Thank you.
    And I apologize for running over, Mr. Chairman, and perhaps 
we can do this more in questions for the record.
    Senator Sanders. Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman, and I'd like to 
thank the Ranking Member as well for this really important 
hearing. It's absolutely vital that we reauthorize the Older 
Americans Act.
    Over the last several years, I've done listening sessions 
all over the State, at least 25, with hundreds of seniors, and 
they all say the same thing, which is, ``I want to be in my 
home, and I want to remain independent.'' And the Older 
Americans Act allows them to do that.
    So they're home, and sometimes they get Meals on Wheels. 
Sometimes they get other services. Someone comes--a volunteer 
will come and drive them to get a haircut or go to a congregate 
dining facility or go to a doctor or a movie. And it saves 
money. This has sort of been a leitmotif of this hearing. What 
is the return on this investment? And that's a phrase that you 
used, Mr. Downey, return on investment.
    Mr. Bedlin, we heard from you that it's hard to get CBO to 
score these things exactly. So what I wonder is, in your 
estimation, what is the return on investment? It costs a lot 
more to be in a nursing home than to be at home. If you can 
keep people in their homes, you save money.
    It doesn't sound like you have hard data. You said, Mr. 
Downey, we need more data. The cost of the sequester--this is a 
significant piece of this. As Ms. Hollander said, the funding 
for the program has gone down if you adjust for inflation and 
population.
    What return on investment are we losing because of the 
sequester? And is it basically, again, being penny-wise and 
pound-foolish? Anyone can speak to that.
    Mr. Downey. Yes. I'm not sure it needs much more 
elaboration.
    Senator Franken. Yes. We've sort of established that the 
hard data isn't there. But I just hate to see us in the so-
called interest of paying down our deficit and our debt 
actually hurting ourselves and hurting people at the same time. 
It's a tough bank shot.
    Ms. Altman. I think all four of us will agree that the 
return on investment of all of these programs--the rate might 
change, but they're all very good. The idea of saving a day of 
hospital care is huge throughout the budget.
    And in the portion I was just talking about, the pension 
information, that's a $1 to $8--for every $1 spent, $8 is 
recovered. So when you cut back, you're losing that kind of 
leverage. For every dollar you cut, you lose $50 of--it costs 
Medicare $50 more. There's $8 less of recovery.
    Ms. Hollander. I would just add one thing which may be 
slightly related to Senator Warren's question, which is if you 
merely took the $51 million that's recently been cut by the 
Older Americans Act between now and the end of the fiscal year, 
and you put that back, and you multiply that by 50, that would 
save you $2.5 billion, just returning that money that was just 
taken away based on sequester, not even talking about the 
previous decline that we were discussing. So if you take the 
$50 times that, that would be just in terms of Medicaid 
savings. So that's very significant.
    And, if I may, I just wanted to mention that earlier in 
your question, Senator Warren, you are right to say that if you 
did add $1.3 million back into it, you would actually--the gap 
between 8.3 million that are currently hungry, and the fact 
that we're only serving 2.5 million now--for that investment, 
we would be able to meet that need.
    Mr. Bedlin. Senator Franken, two quick points. I did 
mention earlier some data from the Lewin Group. Back a few 
years ago, the National Association of Area Agencies on Aging 
and the National Association for States United for Aging and 
Disability tried to get Congress to enact legislation referred 
to as Project 20-20 which would have increased investments in 
Older Americans Act programs with regard to evidence-based 
health promotion, disease prevention, and home and community 
services and supports. And the Lewin data did find very 
significant Medicare and Medicaid savings, which I think we 
could probably share.
    One very important program that we haven't really spoken 
about is the National Family Caregiver Support Program. The 
vast majority of long-term care is provided by family members 
who are overburdened emotionally, financially, and physically. 
And the longer they can continue to provide care and the more 
we can provide them with support----
    Senator Franken. Respite.
    Mr. Bedlin. Exactly. That saves dollars, and that is 
dramatically underfunded and, again, very much penny-wise, 
pound-foolish.
    Senator Franken. Mr. Chairman, I think you have all 
witnessed what can happen when you ask an open-ended question. 
I'm out of time.
    [Laughter.]
    Part of it was Ms. Hollander answering part of Senator 
Warren's question.
    [Laughter.]
    Senator Sanders. In other words, you want another minute. 
You have another minute.
    Senator Franken. OK. One other cost that was mentioned was 
the cost of elder abuse. And, again, this Act helps seniors 
stay at home. In Minnesota, we have a Home Care Consumer Bill 
of Rights that I've introduced on a nationwide level.
    What this bill would do is allow States to develop a Home 
Care Consumer Bill of Rights exactly like we have in Minnesota 
to protect seniors from abuse and neglect and exploitation. My 
bill would also encourage States to create a Home Care 
Ombudsman Program so seniors have a place to turn.
    Mr. Bedlin, we know that seniors want to stay independent 
at home and doing so saves Medicaid money. How can expanding 
protections for seniors to choose home and community-based 
services do this? How can this be helped by this kind of 
program?
    Mr. Bedlin. The difficult question, I think, is which of 
the Federal programs would this most logically apply to. Most 
of the home and community-based services that are funded 
through Federal and State governments are through Medicaid, as 
you know.
    While I do think the Older Americans Act plays a modest but 
critical role, Medicaid is far more involved in paying for home 
and community-based services, which are voluntary, and nursing 
home care, which is mandatory, part of the institutional bias 
in our program. So I think we need to look at a variety of 
areas where we can promote these kinds of consumer protections.
    In many cases, it may be more appropriate to do it at the 
State level. In some cases, it may be more logical to look at 
the Medicaid program and the kinds of standards that are there, 
although I do think the Older Americans Act has a very 
important role to play, but it is complex in terms of--a bit of 
a crazy quilt in terms of how we pay for these services. Which 
of these programs are the best ones, and how do they interact 
and complement each other in terms of, I think, a goal that we 
all support that you've articulated.
    Senator Franken. In Minnesota, we have this program and it 
works. And my staff will work with you if you like to make sure 
that we put it in the right place.
    Thank you, Mr. Chairman, for your indulgence.
    Senator Sanders. Thank you, Senator Franken.
    Senator Franken. I have another question.
    [Laughter.]
    Senator Sanders. But you're not going to ask another 
question.
    [Laughter.]
    Let me just thank the witnesses. It's been excellent 
testimony and very, very important testimony. And I want to 
thank all the members who are here this morning.
    I want to summarize in this respect. What we learned this 
morning is that the need out there is enormous and we don't 
talk about it enough. I think, as Ms. Altman was saying, it's 
an illusion that every senior in America is doing just fine, 
and we know that the rates of poverty are high and getting 
higher.
    We also know the situation is not going to get any better 
tomorrow because we have a significant increase in the number 
of seniors. Our population is aging. We understand--and this is 
terribly important as well in this debate--real funding, 
counting inflation and counting population growth, is 
significantly less than it was in the 1990s. And then on top of 
that, of course, we're dealing with the insult of 
sequestration.
    We have learned today that every dollar we invest in this 
program--you don't have to be a scientist, you don't have to 
have a Ph.D. to figure it out. Keeping people healthy, 
preventing falls, keeping people out of emergency rooms, 
keeping people from abusing the 911 system saves money.
    When we're not adequately funding this program, we're 
wasting money. And my friends who are worried about government 
waste, well, not funding this program is wasting money.
    I have been criticized for actually suggesting that we 
should see a significant increase in funding. And in the bill 
that we have before us, we are recommending a 12 percent 
increase in funding. Between you and me, I would go a lot 
higher.
    But, needless to say, not everybody in the U.S. Congress 
agrees with me, and there are those who say the best that you 
can do, Senator Sanders, is level funding. That's all you can 
do. And we understand that with inflation and everything else 
and population growth, level funding just continues to downward 
spiral.
    Now, I happen to believe that if 100 million people are 
watching this discussion that we're having today with this 
panel, there would be overwhelming support for this program and 
significantly increasing funding for this program. The American 
people understand that it's cost-effective and it is the 
morally right thing to do.
    So I urge and ask all of you and your organizations and 
people all over this country to stand up for seniors right now, 
stand up for a cost-effective government. Let's end government 
waste by not having our emergency rooms inundated with people 
who should not be in emergency rooms or hospital care for 
people who should not have to be in the hospitals.
    Let us work together. Let's stand with seniors. Let's pass 
this Older Americans Act Reauthorzation bill.
    Thank you all very much.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

   Hand-Written Messages on Paper Plates From Seniors at the La Crosse
   County Aging Unit, WI Pon the Importance of OAA Meals and Nutrition
                                Programs
------------------------------------------------------------------------
             Name                      City               Message
------------------------------------------------------------------------
Joyce.........................  La Crosse........  Companionship and
                                                    cost.
Mary..........................  La Crosse........  I like the food and
                                                    the price is
                                                    reasonable and I
                                                    enjoy the company.
Sue...........................  La Crosse........  Thank you for my
                                                    meals. The food is
                                                    excellent. Because
                                                    of my shaking and
                                                    coughing spells, it
                                                    has been easier to
                                                    eat in my apartment.
                                                    It is not easy to
                                                    get out anymore.
                                                    Thank you.
Martha........................  La Crosse........  I do not cook for
                                                    myself. This is my
                                                    main meal.
Joyce.........................  La Crosse........  Please keep the
                                                    program going. I
                                                    enjoy the food and
                                                    having lunch with
                                                    other people.
Jean..........................  La Crosse........  The cost of groceries
                                                    is too high.
Gwen..........................  La Crosse........  Love the meals and
                                                    deliveries. I would
                                                    have no meals
                                                    without the meal
                                                    delivery.
Elaine........................  Onalaska.........  In some cases this
                                                    meal is the only
                                                    real nutritious meal
                                                    they get all day.
                                                    They get a visit
                                                    with other seniors
                                                    and it makes their
                                                    day.
Henry.........................  Onalaska.........  Meeting people and
                                                    getting a good meal.
                                                    Good variety of
                                                    food.
Carl..........................  La Crosse........  I like a good meal
                                                    and to socialize
                                                    with others.
John..........................  Onalaska.........  Nutritious meals,
                                                    reason to get out.
                                                    Keep in touch with
                                                    friends. Breaks up
                                                    the day. Not a lot
                                                    of things for
                                                    seniors other than
                                                    this.
Donna.........................  La Crosse........  I enjoy having meals
                                                    at the nutrition
                                                    site as they are
                                                    good and good for
                                                    me, and I use them
                                                    as my main meal. We
                                                    have a wonderful
                                                    time playing
                                                    cribbage before, and
                                                    wherever there is
                                                    cribbage you will
                                                    find me.
Ona...........................  Onalaska.........  Fun place to go.
                                                    People to talk with.
                                                    Good food, keeps us
                                                    in touch with
                                                    everyone.
Dorothy.......................  Onalaska.........  Lets us out to meet
                                                    people. Very
                                                    nourishing food.
                                                    Inexpensive compared
                                                    to restaurants. Some
                                                    people are home
                                                    bound and need the
                                                    meals.
Mary..........................  La Crosse........  Please make it one of
                                                    your priorities to
                                                    restore full funding
                                                    to Meals on Wheels
                                                    and other programs
                                                    that meet vital
                                                    needs in our
                                                    community and across
                                                    the US. As one
                                                    undergoing new
                                                    treatments, the
                                                    meals are a
                                                    wonderful service at
                                                    this time in my
                                                    life.
Wanda.........................  La Crosse........  I look forward each
                                                    day to the meals and
                                                    the smiles from the
                                                    delivery person. I
                                                    would like if the
                                                    meals contained more
                                                    fruits and salads.
                                                    Thank you!
Helen.........................  La Crosse........  I really enjoy the
                                                    lunches.
Janet.........................  La Crosse........  I enjoy the
                                                    fellowship with
                                                    friends and the
                                                    meals are good. They
                                                    provide a balanced
                                                    meal at a reasonable
                                                    price.
Jane..........................  La Crosse........  I am able to have a
                                                    nutritious meal for
                                                    a reasonable cost
                                                    and I like to come
                                                    to the nutrition
                                                    site to socialize
                                                    with others.
Inez..........................  La Crosse........  Nutritious meal and a
                                                    reason to get up,
                                                    out and socialize.
Meg...........................  La Crosse........  I enjoy volunteering
                                                    at the center and
                                                    like watching the
                                                    members have a
                                                    delicious and
                                                    nutritious meal.
                                                    They are always so
                                                    appreciative. We
                                                    also get a church to
                                                    participate in the
                                                    meal and enjoy their
                                                    company.
Marilyn.......................  La Crosse........  The meals are very
                                                    good and nutritious.
                                                    They are also very
                                                    reasonable. I don't
                                                    know what I would do
                                                    without them.
Madonna.......................  Onalaska.........  The Harry J. Olson
                                                    Senior Center meal
                                                    site is a vital part
                                                    of the community.
                                                    The meals and
                                                    activities there
                                                    provide a social
                                                    outlet for many,
                                                    plus the healthy
                                                    meal is one that
                                                    many would not get
                                                    at home. It's time
                                                    to quit cutting back
                                                    on senior meals and
                                                    nutrition.
Gerald........................  La Crosse........  I don't like to eat
                                                    alone and the price
                                                    of a nutritious meal
                                                    is so expensive.
Bruce.........................  La Crosse........  Don't have money.
Iris..........................  La Crosse........  Proper diet. Enjoy
                                                    company of
                                                    residents. Breaks up
                                                    the day. The price
                                                    is right. We can
                                                    afford 3.25, not
                                                    restaurant prices.
Gladys........................  Onalaska.........  A large number of
                                                    seniors are alone or
                                                    disabled and do not
                                                    do well for
                                                    themselves
                                                    nutritionally or
                                                    socially. The
                                                    nutrition sites and
                                                    senior centers
                                                    provide both social
                                                    life and a balanced
                                                    meal at least once a
                                                    day. These sites are
                                                    needed now and the
                                                    need will increase.
                                                    Please keep
                                                    funding!!!
C.............................  La Crosse........  I don't get out. And
                                                    now I get to meet
                                                    people.
Arlene........................  Onalaska.........  I enjoy volunteers.
                                                    Also we have a
                                                    nutritious meal. It
                                                    helps the people to
                                                    get a good meal.
                                                    Enjoy the people.
                                                    All good company.
Millicent.....................  Onalaska.........  The nutrition program
                                                    provides a wonderful
                                                    noon meal at a
                                                    reasonable price. I
                                                    enjoy sharing
                                                    friendship with
                                                    other seniors.
Andrew........................  La Crosse........  I receive a good
                                                    balanced meal at a
                                                    reasonable price.
                                                    The staff and
                                                    volunteers are
                                                    polite and
                                                    courteous. This is a
                                                    positive thing for
                                                    seniors.
Dolores.......................  La Crosse........  I'm 91 years old.
                                                    Your noon meals mean
                                                    so much to me. They
                                                    are so good. On the
                                                    weekends I probably
                                                    have a peanut butter
                                                    sandwich, juice,
                                                    candy, and other
                                                    sweets. Thanks.
Bernice.......................  La Crosse........  I like to volunteer
                                                    and meet the people
                                                    and a lot don't have
                                                    a place to go.
                                                    Always a good meal.
Phyllis.......................  La Crosse........  I enjoy coming to the
                                                    Harry Olson center
                                                    for lunch and
                                                    playing cards. And
                                                    for all the other
                                                    people who enjoy it
                                                    too.
Waldo.........................  La Crosse........  Get out and see
                                                    people. Keep going.
Lydia.........................  La Crosse........  This is a good
                                                    opportunity to tell
                                                    you that I really
                                                    appreciate Meals on
                                                    Wheels. I've had
                                                    them for a long time
                                                    and I don't tire of
                                                    them. Thank you
                                                    Bernice and all your
                                                    assistants. I was
                                                    very active reaching
                                                    back to the
                                                    seventies first as a
                                                    volunteer and later
                                                    as an employee.
Dave..........................  La Crosse........  Please my mom needs
                                                    Meals on Wheels sent
                                                    to the house! 95
                                                    years old and lives
                                                    at home alone!
Sally.........................  La Crosse........  I love to cook but I
                                                    had cancer surgery
                                                    in December, then a
                                                    stroke and found out
                                                    I was the lowest in
                                                    iron. No strength.
                                                    So I can't stand up
                                                    long and I'm one
                                                    who's used to go-go-
                                                    go! I'm on Social
                                                    Security and can't
                                                    afford a whole lot.
                                                    I enjoy a noon meal
                                                    so thank you. Love
                                                    the cakes and fish
                                                    especially.
Fr. Bob.......................  La Crosse........  When I found the La
                                                    Crosse Aging Unit
                                                    and the mealtime
                                                    lunch service, they
                                                    made such a huge
                                                    tremendous relief
                                                    and change. I am
                                                    quite sure if I had
                                                    not found this
                                                    service of ``meals
                                                    on wheels'', many
                                                    days I would not
                                                    have the energy or
                                                    the willingness to
                                                    even try to make a
                                                    sandwich . . . I am
                                                    so glad that I found
                                                    this service, the
                                                    kind of service they
                                                    do, and how much
                                                    they serve the other
                                                    people who needed
                                                    their service.
------------------------------------------------------------------------


    [Whereupon, at 11:25 a.m., the hearing was adjourned.]

                                  [all]

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
